------ r,

Supreme Court, U.S.
FILED

.gO-8437

JUN 1 5 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

-GAWLIK, JAN.M.
PETITIONER
V.
SEMPLE,SCOTT.ET.AL.,COM?R OF CONNECTICUT CORRECTIONS
RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI T'0
THE UNITED STATES: SUPREME COURT OF
THE CONNECTICUT SUPREME COURT

r

/

PETITION FOR A WRIT.OF CERTIORARI

.^

JUNE 7th,2021

i.

1

i

W

GAWLIK, JAN. M.
PRO-SE
C.C.I.
900 HIGHLAND* AVENUE
CHESHIRE, CT.t)6410'
(203)651-6257
ARGUING COUNSEL
OF RECORD

RECEIVED
JUN 2 4 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

I.

QUESTIONS PRESENTED

WHERE THE CONNECTICUT DEPARTMENT OF CORRECTION VIOLATES THE FIRST
AND FOURTEENTH AMENDMENTS,DENYING THE PLAINTIFF AND HIS INFIRM MOTHER
DENIED VISITS WITHOUT DUE PROCESS,AND VIOLATION OF THE UNITED STATES
CONSTITUTION FIRST AMENDMENT FREEDOM OF ASSOCIATION. WHERE THE CONN­
ECTICUT STATE COURTS VIOLATED THE UNITED STATES SUPREMACY CLAUSE DIS­
MISSING THIS PLAINTIFFS FEDERAL 42 U.S.C.§1983 CIVIL ACTION FILED IN
STATE OF CONNECTICUT COURTS. WHERE THE STATE COURTS VIOLATED THE U.S.
CONSTITUTION PRE-EMPTS THE STATE OF CONNECTICUT LAWS,CONSTITUTION,JUD­
ICIAL JUDGEMENTS AND FEDERAL CONSTITUTION IS THE LAW OF THE LAND. WHERE
THE STATE COURTS DENIED 1st AMENDMENT FREEDOM OF ASSOCIATION OF PLAIN­
TIFFS MOTHER IS DIRECT (BLOOD) WITHOUT DUE PROCESS INWHERE THE COURTS
ARE DENYING THIS PLAINTIFF AND HIS INFIRM MOTHER FREEDOM OF ASSOCIATION,
FREEDOM OF RELIGION TO COMMUNICATE CATHOLIC BELIEFS,FREEDOM OF SPEECH,
FREEDOM OF INTIMATE RELATIONSHIP,ALIENATION OF AFFECTION,ECT. WHERE .
THE PLAINTIFFS INFIRM MOTHER IS A (83) YEAR OLD CATHOLIC MOTHER THAT

-

WANTS TO SPEAK,SEE,EMBRACE HER SON PRIOR BEFORE HER LIFE WITH GOD IN
HEAVEN. WHERE THE DEPENDENTS VIOLATE THIS PLAINTIFF AND HIS (83) YEAR
OLD INFIRM MOTHERS 1st AMENDMENT OF THE CONSTITUTION OF THE UNITES STATES
FREEDOM OF ASSOCIATION,AND 14th AMENDMENT OF THE U.S,CONSTITUTION DUE
PROCESS.

i

II.

PARTIES

DOCKETING STATEMENT OF DEPENDENTS AND COUNSEL OF RECORD;
1.) MR.SCOTT SEMPLE
COM'R OF CORRECTION
DEPT.OF CORRECTION
24 WOLCOTT HILL ROAD
WETHERSFIELD,CT.06109
2.) MR.ANGEL OUIROS
DISTRICT ADMINISTRATOR
McDOUGALL.CORR.INST.
1153 EAST.STREET.S.
SUFFIELD,CT.06080
3.) MR.SCOTT ERFE/WARDEN
CHESHIRE.CORR.INST.
900 HIGHLAND AVENUE
CHESHIRE,CT.06410
4.) ATTORNEY GENERALS OFFICE .
A. A. G ./JACOB! McCHESNEY
110 SHERMAN STREET.06105
(JURIS#440260)-(NQ FEDERAL BAR NO.)
(COUNSEL OF record)

ii

III.

TABLE OF CONTENTS

I.

QUESTIONS PRESENTED

-i

II.

PARTIES

ii

III. TABLE OF CONTENTS

iii

IV.

TABLE OF AUTHORITIES

,v

V.

PETITION FOR WRIT OF CERTIORARI

viii

VI.

OPINIONS BELOW

viii

VII. JURISDICTION

viii

VIII. CONSTITUTIONAL PROVISIONS INVOLVED

viii

IX.

STATEMENT OF CASE................................................................. 1

1. ' X THE STATE OF CONNECTICUT COURTS HAVE SUBJECT MATTER
JURISDICTION OVER (ALLl) FEDERAL CIVIL RIGHTS ACTIONS
42 U.S.C.§1983 FILED IN STATE COURTS,STATUTORY AND ‘
SOVEREIGN IMMUNITY IS BARRED AND DOES NOT APPLY IN
STATE COURTS,VIOLATES SUPREMACY CLAUSE................................ 3

I ■

2.) NOTICE OF CLAIMS COMMISSIONER OR STATUTE AUTHORIZATION
IS PRE-EMPTED BY THE SUPREMACY CLAUSE WITH RESPECT TO
FEDERAL CIVIL RIGHTS ACTIONS BROUGHT IN ANY SRARE COURTS
AND (NO) CLAIMS COMMISSIONER AUTHORIZATION IS REQUIRED
7
OF ANY §1983 BROUGHT IN STATE COURTS
3.) DEPENDENTS VIOLATE DUE PROCESS OF 14th AMENDMENT DENYING
PLAINTIFF AND PLAINTIFFS MOTHER VISITATION RIGHTS OF
ASSOCIATION GUARANTEED BY THE 1st AMENDMENT OF THE U.S.12
CONSTITUTION AND THE BILL OF RIGHTS
4.) THE PLAINTIFF AND HIS (83) YEAR OLD MOTHER INFIRM,WHERE
PLAINTIFF IS THIRD (3rd"J^PARTY ADVOCATE, DUE TO INFIRMITY
IS PROTECTED PURSUANT TO 1st AMENDMENT FREEDON OF ASSOCIA­
TION, BILL OF RIGHTS,RELIGION,SPEECH,DUE PROCESS OF THE
FOURTEENTH AMENDMENT DUE PROCESS CLAUSE OF INTIMATE RELA­
TIONSHIP WITH HIS INFIRM MOTHER PURSUANT TO (CAMACHO V.BRANDON),INWHERE PLAINTIFF IS THIRD PARTY ADVOCATE UNDER
U.S. CONSTITUTION.................... ......... .............. ........................... 14
5.) DEFENDENTS DO NOT HAVE IMMUNITY FROM DAMAGES,STATUTORY
VIOLATIONS,INDIVIDUAL AND OFFICIAL CAPACITIES,SOVEREIGN,
ABSOLUTE,STATUTORY,AND ANY TYPE OF QUALIFIED IMMUNITY
OF §1983,JURY DEMANDED DECIDING FACTS.................................. 18
6.) THE SUPREMACY CLAUSE AND PRE-EMPTION OF THE U.S.CON­
STITUTION APPLIED TO THIS PLAINTIFFS §1983 CIVIL RIGHTS
ACTION IN STATE COURT/ANALYSIS............................................... 23

iii

7.) THIS IS A FEDERAL CIVIL RIGHTS 42 U.S.C.§1983 ACTION
FILED IN STATE COURT OF THE VIOLATIONS WlTHlN THE U.S.CONSTITUTION,THE DEFENDENTS ARE RELYING ON STATE JUDGEH
S
MENTS AND STATE COMMON LAW WHICH IS NOT APPLICABLE WITHIN
A §1983 CIVIL RIGHTS ACTION,DEFENDENTS ENTIRE IS BASED
ON STATE COMMON LAW AND VIOLATES THE SUPREMACY CLAUSE
OF U.S.CONSTITUTION
25
8.) THE CONNECTICUT STATE COURTS RULINGS. USING STATE STATUTES,
JUDGEMENTS,CASE LAWS,CONSTITUTIONS,VIOLATES THE SUPREMACY
CLAUSE U.S.CONSTITUTION
.26
9.) PLAINTIFF AND INFIRM MOTHER ARE PROTECTED UNDER 1st
AMENDMENT FREEDOM OF RELIGION,THE PLAINTIFF AND MOTHER
HAVE RELIGIOUS BOND MOTHER.SON
27
10C)NSTANDARDS APPLIED TO THIS 42 U.S.C.§1983 FEDERAL CIVIL
28
RIGHTS ACTION FILED IN STATE COURT..............
11.) STATEMENT OF RELIEFS AND DEMANDS REQUESTED

28

XI,REASONS FOR GRANTING CERTIORARI

31

XI. CONCLUSION

31

iv.

IV.

TABLE OF AUTHORITIES

MONDOU V.NEW YORK,N.H.& H.R.,CO.,223 U.S.,
1,517,32 S.CT. 109,1*178,56 l.ed.327................. ■ .
ST.LOUIS V.PRAPROTNIK,485 U.S.112,121-122,108.S.CT.
915,922-23,99 l.ed.2d.l07.
MARTINEZ V.CALIFORNIA,444 U.S.227,100 S.CT.553,62,
l.ed.2d.841(1980).......................... ................. ......................

PG#4

MARTINEZ V.CALIFORNIA,444 U.S.277,100 S.CT.553,62,
l.ed.2d.841(1980).............................................. ........... . . . .

PG#5

MONDOU V.NEW YORK,N.H.& H.R.CO.,223 U.S.,
1,58,32,s.ct.169,178,56,l.ed.327(1912).
TESTA V.KATT,330 U.S.386,67 S.CT. 810,91, l.ed.',
967(1947).
ROBB V.CONNELLY,111,U.S.624,637,4,S.CT.,
544,551,28 1.ed.542(1884).
FELDER V.CASEY,487,U.S.131,108 S.CT.2302,101 L.ED.2d.,
123(1998)".
OWEN V.CITY OF INDEPENDENCE,445 U.S.647.n.30,100,
S.CT.1413

PG#6

MONELL V.NEW YORK CITY DEPT.OF SOCIAL CERVICES,
436 U.S.658,98 S.CT.2018,56 1.ed.2d.611(1978).
WILSON V.GARCIA,471,U.S.261,269,105,
S.CT.1938,1942,85 1.ed.2d.254(1985) .
MINNEAPOLIS & ST.LOUIS R.CO., V.BOMBOLIS,241 U.S.222,36 S.CT.558.
PG#7
HOWLETT V. ROSE, 496 U. S . 356 (1990)............ ...................
BROEN V.WESTERN R.CO.OF ALABAMA,338,
U.S.294,296,70 S.CT.105,106,94.1.ed.100(1949).
FREE V.BLAND,369 U.S.663,666,82 S.CT.,
1089,1092,8,l.ed.2d.180(1962) .
BURNETT V.GRATTON,468 U.S.42,55,104,
S.CT.2924,2932,82 L.ED.2d.36(1984).
MITCHUM V.FOSTER,407 U.S.225,239,92 S.CT.2151,
2160,32 L.ED.2d.705(1972).......................... ...................
UNITED STATES V.PRICE,383 U.S.787,801,86 S.CT.,
1152,1160,16 L.ED.2d.267(1966) .
BROWN V.UNITED STATES,239 U.S.APP.D.C.345,n.6,
742 f.2d.1498,1509 n.6.(1984)...................... ...............
PATSY V.BOARD OF REGENTS,457 U.S.496,102,
S.CT.2557,73 1.ed.2d.172(1982).
GARRETT V.MOORE-McCORMACK,CO.,317 U.S.239,245,63,
S.CT. 246,251,87 L. ED. 239 (1942 ) ........................ ...........
WILSON V.GARCIA,401 U.S.261,105 S.CT.1938,
85 1.ed.2d.254(1985).
MARTINEZ V.CALIFORNIA,444 U.S.277,283,n.7.,
100,S.CT.553,558(1980).................. ..................................

v.

PG#9

PG#10

PG#10

PG#11

MONELL V.NEW YORK CITY DEPT.OF SOCIAL SERVICES,
436 U.S.658,690,n.54,98 S . CT. (1978)".
FELDER V.CASEY,487 U.S.131(1988).
DUNCAN V.LOUISIANA,391 U.S.145,147-148,88,
S.CT.1444(1968).
DUNCAN V.POYTHRESS,657 f.2d.691,704(5th.cir.1981)

PG#12

COUNTY OF SACRAMENTO V.LEWIS,523 U.S.883,849-49,
118 S.CT.1708(1998!).
RUNYON V.McCRARY,42$ U.S.160,187-89,
96 S.CT.2586,2602-2603,49 1.ed.2d.415(1976).
NAACP V.CLAIBORNE HARDWARE CO.,458 U.S.886,907-909,
932-933,102 S .CT. 3409,3422-3423,34.36,73 1.ed. 2d. 1215(1982) .
ABOOD V.DETROIT BOARD OF EDUCATION,
431 U.S.209,231,97 S.CT.1782,1797,53 1.ed.2d.261(1997).
LARSON V. VALENTE, 456 U. S . 228,224-246., 102 S.CT.,
1673,1683,1684,72 l.ed.2d.33(1982)............................................ . .

PG#13

CAMACHO V.BRANDON,317 f.3d.153(2nd.cir.2003)............................

PG#14

CAMACHO V.BRANDON,317 f.3d.153(2nd.cir.2003)............ ...............

PG#15

PIERCE V.SOCIETY OF SISTERS,268 U.S.510,534-535,
45 S.CT.571,573-69,l.ed.1070(1925).
MEYER V.NEBRASKA,262 U.S.390,399,43,
S.CT.625,626,67 l.ed.1042(1923)......................................................

PG#16

ZABLOCKI V.REDHAIL,434 U.S.374,383-386,98 S.CT.,
673,679-681,54 1.ed.2d.618(1978).
MOORE V,EAST-CLEVELAND,431 U.S.494,503-504,97 S.CT.1932,
1937-38,52,l.ed.2d.531(1977).
WISCONSIN V. YODER, 4P>6 U. S . 205,232,92 S.CT.,
1626,1541,32,l.ed.2d.(1971).
GRISWOLD V.CONNECTICUT,381 U.S.479,482-485,85,
S.CT.1678,1680-1682,14 1.ed.2d.510(1925).
QUTLLION V.ORGANIZATION OF FOSTER FAMILIES,431 U.S.,
816-844(97 S.CT.2094,2109,53,1.ed.2d.14(1977).
STANLEY V.GEORGIA394 U.S.557,564,89,
S.CT.1243,1247,22 L.ED.@D.542(1969)..............................................

PG#17

CAMACHO V.BRANDON,317 f.3d.153(2nd.cir.2003)............................

PG#18

MONELL V.NEW YORK CITY DEPT.OF SOCIAL SERVICES,
436 U.S.658,690,n.54,98 S.CT.(1978).
HAFER V.MELO,502 U.S.21,25,112 S.CT.358(1991).
C0RNF0RTH~V7UNIV.0F.0KLA.BD.0F REGENTS,263 f.3d.,
1129,1132-33(1st.cir.2001).
HAFER V.MELO,502 U.S.21,27-28 112 S.CT.358(1991)....................

PG#19

HARBERT V.ADKINSON,887,f.2d..134,140(8th.cir.1989).
LAWRENCE V.REED,406 f.3d.1224,1232(11th.cir.2005).
CURLEY V.KLEM,449,f.3d.199,211(3rd.cir.2007)............................

PG#20

vi.

WILLINGHAM V.CROOKE,412-,f.3d.553,559-60(4th.cir.2005)..
LITTRELL V.FRANKLIN,388 f.3d.578,584-85,
(8th.cir.2004)..................................................................................

PG#20
PG#20

McCOY V.HERNANDEZ,203 f.3d.371,375(5th.cir.2000).
KEYTON V.CITY OF ALBUQUERQUE, 535 f.3d.1210,1217-18,
(loth.cir.2008).
NOVITSKY V.CITY OF AURORA,491,f.3d.,
1244-1255-56(10 th.cir.2007)........................................................

PG#21

BELL V.WOLFISH,441 U.S.520,545(1979).
JONES V.N.C.PROSONERS LABOR UNI ON,433 U.S.119,129(1977).
MEACHUM V.FANO,427 U. S . 215,225(1976).............. .......................

PG#22

ALTRIA V.GROUP INC. V.GOOD,555U.S.70,76(2608) .
COUMO V.CLEARING HOUSE ASS'N,L.L.C,557,
U.S,519,536(2009)................ ............. .. ..........................................
RIEGEL V. MEDTRONIC, INC. ,552 U. S . 312,32.3,30(2008)..............

PG#23
PG#23

ARIZONA V.UNITED STATES,567 U.S.387,399(2012)
CROSBY V,NAT.L.FOREIGN TRADE COUNCIL,
530 U.S.363,387(2000).
MITCHUM V. FOSTER,407 U. S . 225,240(1972).................. ...............

. PG#24

CITY OF NEWPORT V.FACTS CONCEPTS,INC.453 U.S.,
247,268(1981)

PG#25-

CAMACHO V.BRANDONjl7,f.3d.153,159(2nd.cir.2003). . . .

PG#26

PHELPS-ROPER V.NIXON;555f.ed.685,690(8th.cir.2008).
DURAN V.ANAYA,642 f.supp,510,527,(D.N.M.1986).
LLEWELYN V.OAKLAND COUNTY PROSECUTORS OFFICE,
402,f.supp.1379,2393(E.D.MICH.1975)..............................

PG#31:

vii.

V.

PETITION FOR WRIT OF CERTIORARI

GAWLIK,JAN.M.,AN INMATE CURRENTLY

INCARCERATED AT CHESHIRE.CORR.

INST.,IN CHESHIRE,CT. AS A PRO-SE LITIGANT RESPECTFULLY PETITIONS
THIS COURT FOR WRIT OF CERTIORARI TO REVIEW THE JUDGEMENT OF THE
CONNECTOCUT SUPERIOR COURT,CONNECTICUT APPELLATE COURT,SUPREME COURT.
VI.

OPINIONS BELOW

THE DECISION BY THE CONNECTICUT APPELLATE COURT DENYING TO PROPE­
RLY REVIEW THE APPEAL AND EVIDENCE IS REPORTED AS (GAWLIK,JAN.M.V.SEMPLE,SCOTT.ET.AL.,APPELLATE COURT,202 CONN.APP,202(JANUARY 12th,2021).
THE CONNECTICUT SUPREME COURT DENIED CERTIFICATION PETITION FOR HE­
ARING ON APRIL 21st,2021. MOTION FOR RECONSIDERATION "EN_BANC",WAS

.

DENIED BY SUPREME COURT ON MAY 25th,2021. THE ORDERS OF THE CONNECTICUT
SUPREME COURT ARE ATTACHED AT ("APPENDIX") AT: (APPN.#(A)!J
VII.

JURISDICTION

GAWLIK,JAN.M.,PETITION FOR HEARING TO THE CONNECTICUT SUPREME COURT
WAS DENIED ON APRILS2'lsl', 2021. EN-BANC DENIED MAY 25th, 2010, INVOKES
COURTS JURISDICTION UNDER 28 U. S.C.§1257,HAVING TIMELY FILED THIS PETI­
TION FOR A WRIT OF CERTIORARI WITHIN NINETY DAYS OF THE CONNECTICUR SU­
PREME COURTS JUDGEMENT.
VIII.

CONSTITUTIONAL PROVISIONS INVOLVED

UNITED STATES CONSTITUTION,AMENDMENT I:
CONGRESS SHALL MAKE NO LAWS RESPECTING AN ESTABLISHMENT OF RELIGION,
OR PROHIBITING THE FREE EXERCISE THEREOF;OR ABRIDGING THE FREEDOM OF
SPEECH,OR OF THE PRESS;OR THE RIGHT OF THE PEOPLE PEACEABLY TO ASS­
EMBLE, AND TO PETITION THE GOVERNMENT FOR A REDRESS OF GRIEVANCES.
UNITED STATES CONSTITUTION,AMENDMENT XIV:
ALL PERSONS BORN OR NATURALIZED IN THE UNITED STATES,AND SUBJECT TO
THE JURISDICTION THEREOF,ARE CITIZENS OF THE UNITED STATES AND OF
THE STATE WHEREIN THEY RESIDE.NO STATE SHALL MAKE OR ENFORCE ANY LAW
WHICH SHALL ABRIDGE THE PRIVILEGES OR IMMUNITIES OF CITIZENS OF THE
UNITED STATES;NOR SHALL ANY STATE DEPRIVE ANY PERSON OF LIFE,LIBERTY,
OR PROPERTY,WITHOUT DUE PROCESS OF LAW;NOR DENY TO ANY PERSON WITHIN
ITS JURISDICTION THE EQUAL PROTECTION OF THE LAWS.

viii.

IX.

STATEMENT OF THE CASE

THE PETITIONER FILED A 42 U.S.C,§1983 WITHIN THE STATE COURT USING
FEDERAL CAUSES OF ACTION PROTECTED BY THE U.S.CONSTITUTION,DUE TO THAT
THE CONNECTICUT COURTS ARE DENYING 1st AMENDMENT FREEDOM OF ASSOCIATION,
WITH THIS PLAINTIFFS (83) YEAR OLD INFIRM MOTHER AND IMPLEMENTING AN
ALIENATION OF AFFECTION DENYING CONTACT VISITS WITHOUT ANY DUE PROCESS.
THE STATE COURTS DENIED 1st AMENDMENT FREEDOM OF ASSOCIATION OF PLAIN­
TIFFS MOTHER IS DIRECT (BLOOD) WITHOUT DUE PROCESS INWHERE THE CONNECTI­
CUT COURTS ARE DENYING THIS PLAINTIFF AND HIS INFIRM MOTHER U.S.CONSTI­
TUTIONALLY PROTECTED FREEDOM OF ASSOCIATION,FREEDOM OF RELIGION BETWEEN
THIS PLAINTIFF AND INFIRM (83) YEAR OLD MOTHER TO COMMUNICATE CATHOLIC
BELIEFS,FREEDOM OF SPEECH,FREEDOM OF INTIMATE RELATIONSHIP,ALIENATION
OF AFFECTION,ECT. THE PLAINTIFFS INFIRM (83) YEAR OLD MOTHER WANTS TO
SPEARS SEE,EMBRACE HER SON PRIOR BEFORE HER LIFE WITH GOD IN HEAVEN.
PLAINTIFFS (83) YEAR OLD MOTHER FORGAVE HER SON (PLAINTIFF) WHAT HAS
HAPPENED IN OUR FAMILY AS JESUS CHRIST FORGAVE,AND HAS REQUESTED (3)
TIMES IN THREE VISITING APPLICATIONS TO VISIT HER SON ON CONTACT VISITS
SO SHE CAN EMBRACE THIS PLAINTIFF WITH FORGIVENESS.
THE CONNECTICUT STATE COURTS VIOLATED THE SUPREMACY. CLAUSE OF THE U.S.CONSTITUTION DISMISSING THIS FEDERAL §1983 FILED IN STATE COURT USING
STATE HERITAGE LAWS,STATUTES,CONSTITUTIONS WHICH DO NOT APPLY AND ARE
PRE-EMPTED BY FEDERAL LAWS. THE COURTS OF CONNECTICUT USED IN ALL THE
RULINGS STATE LAWS VIOLATING THE SUPREMACY CLAUSE. THE PLAINTIFF/PETITI­
ONER IS NOW RESPECTFULLY APPEALING THE SUPREMACY CLAUSE VIOLATIONS TO
THE UNITED STATES SUPREME COURT TO ALLOW THIS PLAINTIFFS (_83) INFIRM
MOTHER CONTACT VISITS BEFORE THE PLAINTIFFS MOTHER GOES TO GOD IN HEAVEN.

(1)

THIS PLAINTIFFS 42 U.S.C.§1983 FILED IN STATE COURTS IS PROTECTED UNDER
THE SUPREMACY CLAUSE OF THE UNITED STATES CONSTITUTION PRE-EMPTS THIS
CIVIL RIGHTS ACTION OF FREEDOM OF ASSOCIATION UNDER THE 1st AMENDMENT.
THE CONNECTICUT COURTS HAVE SUBJECT MATTER JURISDICTION OVER THIS PLAI­
NTIFFS ACTION,BUT,USED COMMON STATE LAWS TO DISMISS THIS §1983 CASE AND
VIOLATED THE SUPREMACY CLAUSE OF THE U.S.CONSTITUTION WHICH GOVERNS THIS
FEDERAL CIVIL RIGHTS ACTION. NOTICE OF CLAIMS COMMISSIONER APPROVAL DOES
NOT APPLY WITHIN A FEDERAL §1983,AND NOTICE OF CLAIMS COMMISSIONER CON­
FLICTS WITH §1983 AND IS BARRED AND NOT APPLICABLE IN FEDERAL ACTIONS.
STATUTORY AND SOVEREIGN IMMUNITY DOES NOT APPLY IN A §1983 FEDERAL CIVIL
RIGHTS ACTION FILED IN STATE COURT. THE SUPREMACY CLAUSE PRE-EMPTS STATE
STATUTES AND STATE COMMON LAW OF CONNECTICUT,BUT,THE CONNECTICUT COURTS
BELIEVE THAT STATE LAWS SUPERCEDE FEDERAL LAWS IN A §1983 FILED IN THE
STATE COURTS. CONNECTICUT CALLED THE CONSTITUTION STATE REQUIRES THE
COURTS IN CONNECTICUT TO BE REEDUCATED ON THE DIFFERENCE BETWEEN FEDERAL
AND STATE CONSTITUTIONS AND THEY MU ST/"REALIZE THAT THE U. S . CONSTITUTION
IS THE LAW OF THE LAND. THIS PLAINTIFFS VISITATION RIGHTS UNDER THE BILL
OF RIGHTS AND 1st AMENDMENT FREEDOM OF ASSOCIATION WITH DUE PROCESS OF
LAW IS PROTECTED UNDER U.S.CONSTITUTION. THE DUE PROCESS IS GUARANTEED
BY THE U.S.CONSTITUTION AND THE DEFENDENTS WITHOUT DUE PROCESS DENIED
THIS PLAINTIFFS MOTHERS REQUESTS TO VISIT HER SON,AND,DUE TO HIS (83)
YEAR OLD MOTHERS ELDERLY INFIRM CONDITION THIS PLAINTIFFS MOTHER RE­
QUESTED (3) TIMES TO VISIT HER SON,AND REQUESTING THE EOURTS FOR VISI~ (APPENDIX(D)-MOTHERS VISITING APPLICATIONS/DENIALS)
TATION. THE PLAINTIFF AND INFIRM MOTHER WERE DENIED VISITATION WITHOUT
DUE PROCESS,AND BOTH SUFFERED INJURY DUE TO DENIAL OF THEIR FIRST AME­
NDMENT RIGHTS TO FREEDOM OF ASSOCIATION AND RELIGION AND SPEECH,TO A
CLOSE AND INTIMATE RELATIONSHIP AS MOTHER AND SON,RELIGIOUS OBSERVANCES
OF THIS PETITIONER AND INFIRM MOTHER,AND RELIGIOUS RELATIONSHIP UNDER
GOD.
(2)

THE MOTHER AND THIS PETITIONER SUFFERED INJURY BEING DENIED (BLOOD)
VISITS,AND THE SON (PETITIONER), BEING AN EFFECTIVE (3rd) PARTY ADVOCATE
FOR HIS INFIRM MOTHER DUE TO HER INFIRMITY AND BLOOD RELATIONSHIP. THE
HINDERANCE AND DENIAL OF PETITIONERS (83) YEAR OLD INFIRM MOTHER WHO
CANNOT ADVOCATE FOR HERSELF LEAVES THE ONLY AVENUE OF THE SON (PLAINTIFF)
TO ADVOCATE FOR MOTHER AND HIMSELF WHICH HAS CAUSED INJURY TO BOTH THE
PLAINTIFF AND HIS INFIRM MOTHER,VIOLATES 1st AMENDMENT OF FREEDOM OF
ASSOCIATION,SPEECH,RELIGION,ALIENATION OF AFFECTION,AND DUE PROCESS OF
LAW. INFIRM MOTHER AND PETITIONER HAVE RIGHT TO INTIMATE RELATIONSHIP.
1.) THE STATE OF CONNECTICUT COURTS HAVE SUBJECT MATTER JURISDICTION
OVER (ALL) FEDERAL CIVIL RIGHTS ACTIONS 42 U.S.C.§1983 FILED IN
STATE COURTS,STATUTORY AND SOVEREIGN IMMUNITY IS BARRED AND DOES
NOT APPLY IN STATE COURTS,VIOLATES.SUPREMACY CLAUSE.
THE UNITED STATES SUPREME COURT HOLDS THAT STATE COURTS REFUSAL TO EN­
TERTAIN §1983 CiLAIMS, WHEN STATE COURTS ENTERTAIN SIMILAR STATE LAW ,AC­
TIONS AGAINST STATE DEFENDENTS,VIOLATES THE SUPREMACY CLAUSE. FEDERAL
LAW IS ENFORCABLE IN STATE COURTS OF THE U.S.CONSTITUTION AND LAWS PA­
SSED PURSUANT,THE SUPREMACY CLAUSE FORBIDS STATE COURTS TO DISASSOCIATE
THEMSELVES FROM FEDERAL LAWS BECAUSE OF A DISAGREEMENT WITH ITS CONTENT
OR REFUSAL TO RECOGNIZE SUPERIOR AUTHORITY OF ITS SOURCE. THE DEFENDED
NTS STATUTORY AND SOVEREIGN IMMUNITY GROUNDS OF CONNECTICUT VIOLATES
THE SUPREMACY CLAUSE. CONNECTICUT STATE LAWS OF STATUTORY AND SOVEREIGN
IMMUNITY DEFENSE IS NOT APPLICABLE IN A §1983 ACTION BROUGHT IN STATE
COURTS. THE JURISDICTION SUBJECT MATTER IS PRE-EMPTED BY THE SUPREMACY
CLAUSE WHEN A FEDERAL ACTION IS BROUGHT IN STATE COURT. THE SUPREMACY
CLAUSE CANNOT BE EVADED BY THE MERE MENTION OF THE WORD "JURISDICTION'.'
AS PERSONS SUBJECT TO LIABILITY,INDIVIDUAL STATES MAY NOT EXEMPT SUCH
PERSONS FROM FEDERAL LIABILITY IN STATE COURTS BY RELYING ON THEIR OWN
LAW HERITAGE;TO HOLD OTHERWISE WOULD ENABLE STATES TO NULLIFY FOR THEIR
(3)

OWN PEOPLE THE LEGISLATIVE DECISIONS THAT CONGRESS HAS MADE ON BEHALF
OF ALL THE PEOPLE OF THE UNITED STATES CONSTITUTION. THE ENTIRE CONN­
ECTICUT COURTS DISMISSING THIS PLAINTIFFS FEDERAL §1983 FILED IN STATE
COURTS AND APPLYING STATUTORY AND SOVEREIGN IMMUNITY DEFEATS THE PUR­
POSE OF §1983 FROM LIABILITY AND INJURIES UNDER THE COLOR OF STATE LA­
WS OF THE STATES. THE §1983 IS A REMEDY AGAINST THE STATES THAT INJURE
THEIR CONSTITUTIONALLY PROTECTED RIGHTS AND USE STATUTORY AND SOVEREIGN
IMMUNITY AS PROTECTION AS THE DEFENDENTSTOF THE STATE OF CONNECTICUT,
AND THE CONNECTICUT COURTS CONDONING THEIR FEDERAL UNCONSTITUTIONAL
ACTIONS,TO HIDE FROM THEIR ACTIONS. STATE AS WELL AS IN FEDERAL COURTS
HAVE SUBJECT MATTER JURISDICTION OVER SUHTS BROUGHT PURSUANT TO §1983
WHICH CREATES A REMEDY FOR VIOLATIONS OF FEDERAL RIGHTS COMMITTED BY 7 3
PERSONS ACTING UNDER COLOR OF STATE LAW,AS THE DEFENDENTS IN THIS FEDE­
RAL CIVIL §1983 ACTION. UNDER THE SUPREMACY CLAUSE,STATE COURTS HAVE A
CONCURRENT DUTY TO ENFORCE FEDERAL LAW:(MONDOU V.NEW YORK,N.H.& H.R.CO. ,223 U.S.l,57,32 S.CT. 169,178,56 L.ED.327)'. THE CONNECTICUT COURTS
CANNOT VIOLATE THE FEDERAL SUPREMACY CLAUSE OF §1983 AND ALLOW STATUTORY
AND SOVEREIGN IMMUNITY AS A DEFENSE AND ARE NOT SUBJECT TO LIABILITY UN?
DER §1983,IT DIRECTLY VIOLATES FEDERAL LAW,WHICH MAKES GOVERNMENTAL DE­
FENDENTS THAT ARE NOT ARMS OF THE STATE LIABLE FOR THEIR CONSTITUTIONAL
VIOLATIONS UNDER §1983. (ST.LOUIS V.PRAPROTNIK,485 U.S.112,121-122,108-3
S.CT.915,922-23,99 L.ED.2d.107). THE CONNECTICUT DEFENDENTS CONDUCT DEN?
YING VISITATION PROTECTED BY THE FIRST AMENDMENT FREEDOM OF ASSOCIATION,
VIOLATING PROCEDURAL DUE PROCESS OF ANY HEARINGS OF BOTH THE PLAINTIFF ,
AND HIS (83) YEAR OLD INFIRM MOTHER,UNDER COLOR OF STATE LAW WHICH IS
WRONGFUL UNDER §1983,CANNOT BE IMMUNIZED BY STATE LAW EVEN THOUGH THAT
THE FEDERAL CAUSE OF ACTION IS- BETNG ASSERTED IN STATE COURT. (MARTINEZV.CALIFORNIA,444 U.S.227,100 S.CT.553,62 L.ED.2d.841(1980).
(4).

THE STATE OF CONNECTICUT DEPENDENTS AND COUNSEL STATES ALWAYS THAT
THEY ARE PROTECTED BY STATUTORY AND SOVEREIGN IMMUNITY WHICH HAS NO MERIT
TO THIS PLAINTIFFS ARGUMENT OF THIS (FEDERAL §1983 FILED IN STATE COURT)
AND STATE THAT STATE COURTS HAVE NO SUBJECT MATTER JURISDICTION OF THIS
PLAINTIFFS §1983 FILED IN STATE COURT. THE STATE COURTS HAVE JURISDIC­
TION TO ENFORCE FEDERAL LAWS. THE SUPREMACY CLAUSE RULES ARE DESIGNED TO
PROTECT THE INDIVIDUALS INJURED UNDER §1983 BY THE STATE OF CONNECTICUT
DEPENDENTS UNDER COLOR OF STATE LAW WHICH DOES NOT APPLY. CONGRESS STA­
TES; COMMON LAW PRACTICE AND INDIVIDUAL STATES MAY NOT RELY ON THEIR OWN
COMMON LAW HERITAGE TO EXEMPT FROM FEDERAL LIABILITY PERSONS THAT CON- .
GRESS SUBJECTED TO LIABILITY UNDER §1983.
SECTION#!,OF THE CIVIL RIGHTS ACT OF 1871,REV.STAT§1979,NOW CODIFIED
AS 42 U.S.C.§1983,CREATES A REMEDY FOR VIOLATIONS OF FEDERAL RIGHTS COM­
MITTED BY PERSONS ACTING UNDER COLOR OF STATE IN THEIR INDIVIDUAL CAPA­
CITIES. THE:. COURTS AS WELL AS FEDERAL COURTS HAVE JURISDICTION OVER
§1983 CASES,AND CONNECTICUT COURTS HAVE SUBJECT MATTER JURISDICTION OF
THIS PLAINTIFFS §1983 FILED WITHIN STATE OF CONNECTICUT COURTS. THE CON­
NECTICUT DEFENDENTS ARE LIABLE FOR INJURIES AGAINST THIS PLAINTIFF AND
HIS INFIRM MOTHERS FIRST AMENDMENT FREEDOM OF ASSOCIATION AND DUE PROCE-J
SS. IN CASE:(MARTINEZ V.CALIFORNIA,444 U.S.277,100 S.CT.553,62 L.ED.2d.~
481(1980) :HELD;THAT A STATE CANNOT IMMUNIZE AN OFFICIAL FROM LIABILITY
FOR INJURIES COMPENSABLE UNDER FEDERAL LAW. THIS CONNECTICUT COURTS HAVE
SUBJECT MATTER JURISDICTION OVER THIS PLAINTIFFS §1983 AND FEDERAL LAW
IS ENFORCEABLE IN STATE COURT.THE PLAINTIFFS ACTION OF §1983 AGAINST
THE DEFENDENTS ARE VALID BECAUSE THE CONSTITUTION AND LAWS PASSED PURSU­
ANT PRIOR TO IT ARE AS MUCH LAWS IN THE STATES AS LAWS PASSED BY THE
STATE LIGISLATION OF CONNECTICUT. THE "SUPREMACY CLAUSE" MAKES THOSE
LAWS "THE SUPREME LAW OF THE LAND",AND CHARGES STATE COURTS SUBJECT
(5)

MATTER JURISDICTION AND TO ENFORCE THIS PLAINTIFFS §1983 FILED IN STATE
COURT. THE TWO TOGETHER FORM ONE SYSTEM OF JURISPRUDENCE,WHICH CONSTITU-7
TES THE LAW OF THE LAND FOR THE STATE OF CONNECTICUT.A STATE COURT MAY
NOT DENY A FEDERAL RIGHT,WHEN THE PARTIES ..AND CONTROVERSY ARE PROPERLY
BEFORE IT. THE EXISTANCE OF "JURISDICTION" CREATES AN IMPLICATION OF THE
STATES DUTY TO EXERCISE IT. (MONDOU V.NEW YORK.N.H.& H.R.CO.223,U.S.1,58,32,S.CT.169,178,56,l.ed.327/(1912):(TESTA V.KATT,33Q U.S.386,67,S.CT.810,91,L.ED.967(1947):(ROBB V.CONNOLLY,111,U.S.624,637,4 S.CT.544,551,28 l.ed.542(1884).
A COURTS EXCUSE THAT IS INCONSISTANT WITH OR VIOLATES FEDERAL LAW STATEING IT HAS NO JURISDICTION SUBJECT MATTER,IS NOT A VALID EXCUSE. THE SU­
PREMACY CLAUSE FORBIDS STATE COURTS TO DISASSOCIATE THEMSELVES ENTIRELY
FROM FEDERAL LAW. (JUSTICE SANDRA DAY O'CONNER,IN (HOWLETT V.ROSE):HELD:
THAT STATES MAY NOT DISCRIMINATE AGAINST FEDERAL CAUSES OF ACTION,FEDERAL
§1983 IN THE STATE COURTS ARE PRE-EMPTED BY FEDERAL LAW.(QUOTE).
(FELDER V.CASEY,487,U.S.131,108 S.CT.2302,101 L.ED.2d.123(1988):(JAMESV.KENTUCKY,466 U.S.at 348,104 S.CT.1835). THE FEDERAL CONSTITUTION PRO­
HIBITS STATE COURTS OF (GENERAL JURISDICTION) FROM REFUSING TO DO SO SO­
LELY BECAUSE THE SUIT IS BROUGHT UNDER FEDERAL LAW. THE CONNECTICUT COURT
HAS SUBJECT MATTER JURISDICTION.THE U.S.SUPREME COURT HOLDS THAT GOVERNM-■
ENT AND STATE ENTITIES SUBJECT TO §1983 DO NOT HAVE SOVEREIGN IMMUNITY,-7
STATUTORY IMMUNITY THAT THIS WOULD DIRECTLY VIOLATE FEDERAL LAW. CONNEC­
TICUT STATE COURTS ENTERTAINING §1983 ACTION MUST ADHERE TO THE UNITED
STATES CONSTITUTION AND CANNOT APPLY COMMON STATE LAW ASSERTING OF A
SOVEREIGN IMMUNITY TO A FEDERAL RIGHT ACTION,OF COURSE,CONTROLLED BY FED7ERAL LAW. (OWEN V.CITY OF INDEPENDENCE,445 U.S.647 n.30,100 S.CT.1413).
THE SUPREME SOVEREIGN IMMUNITY THE MUNICIPALITY POSSESSED. THE DECISION
TO SUBJECT STATE SUBDIVISIONS TO LIABILITY FOR VIOLATIONS OF FEDERAL
(6)

RIGHTS, WAS/'A CHOICE THAT THE U.S. CONGRESS MADE, AND IT IS A DECISION THAT
THE STATE OF CONNECTICUT HAS NO AUTHORITY TO OVERRIDE. FEDERAL LAW MA­
KES DEFENDENTS THAT ARE ARMS OF THE STATE OF CONNECTICUT LIABLE FOR THEIR
CONSTITUTIONAL VIOLATIONS. (MONElL V.NEW YORK CITY DEPT.OF SOCIAL SERVICES436 U.S.658,98 S.CT.2018,56 L.ED.2d.611(1978). CONGRESS SURELY DID
NOT INTEND TO ASSIGN TO THE COURTS AND LEGISLATORS A CONCLUSIVE ROLE IN
THE FORMATION OF DEFINING AND CHARACTERIZING THE ESSENTIAL ELEMENTS OF
FEDERAL CAUSE OF ACTION. (WILSON V.GARCIA,471,U.S.261,269,105 S.CT.1938,1943,85 I.ed.2d.254(1985). A FEDERAL LAW IN STATE COURT IS JUST AS
MUCH LAWS PASSED BY STATE LEGISLATORS, REFUSING TO APPLY FEDERAL LAW IN 5:
STATE COURTS VIOLATES FEDERAL LAWS. (MINNEAPOLIS & ST.LOUIS R.CO. V.BOMBOLIS,241 U.S-222,36 S.CT.558). STATES ARE OBLIGATED TO ENFORCE FEDE­
RAL LAW OF §1983 AND MAY NOT IGNORE THE TERM OF "JURISDICTION',' AND DENY!
SUBJECT MATTER OF CONSTITUTIONAL VIOLATIONS.PERSONS THAT CONGRESS SUBJE­
CTED TO LIABILITY,INDIVIDUAL STATES MAY NOT EXEMPT SUCH PERSONS FROM FE­
DERAL LIABILITY BY RELYING ON THEIR OWN COMMON LAW HERITAGE. IN THE CASE
OF (HOWLETT V.ROSE,496 U.S.356(1990);STATES:COURTS REFUSAL TO ENTERTAIN
§1983,VIOLATED THE SUPREMACY CLAUSE OF U.S.CONSTITUTION.
■

:

STATUTORY AND SOVEREIGN IMMUNITY NOT ALLOWED IN FEDERAL §1983 CAUSES OF
ACTION,EVERY STATE WOULD HAVE THE SAME OPPORTUNITY TO EXTEND THE MANTLE •
OF SOVEREIGN IMMUNITY TO "PERSONS" WHO WOULD OTHERWISE BE SUBJECTED TO
§1983 LIABILITY.STATES WOULD BE FREE TO "NULLIFY" FOR THEIR OWN PEOPLE
THE LEGISLATIVE DECISIONS THAT CONGRESS HAS MADE ON BEHALF OF ALL THE
PEOPLE. * (APPENDIX(E)-HOWLETT V.ROSE,496 U.S.356(19901)'.
2.) NOTICE OF CLAIMS COMMISSIONER OR STATUTE AUTHORIZATION IS PRE-EMPTED
BY THE SUPREMACY CLAUSE WITH RESPECT TO FEDERAL CIVIL RIGHTS ACTIONS
"BROUGHT IN ANY STATE COURTS,AND (NO') CLAIMS COMMISSIONER AUTHORIZA-~
TION IS REQUIRED OF ANY §1983 BROUGHT IN STATE COURTS.
THIS PLAINTIFF DOES NOT REQUIRE ANY (NOTICE OF CLAIM OR CLAIMS COMMISSI(7)

ONER AUTHORIZATION) TO OBTAIN MONETARY DAMAGES FROM THE DEPENDENTS VIOL­
ATIONS. NOTICE OF CLAIM STATUTE IN CONNECTICUT CONFLICTS IN BOTH ITS
PURPOSE AND EFFECTS WITH §1983 REMEDIAL OBJECTIVES,AND BECAUSE ITS ENFO­
RCEMENT IN STATE COURT ACTIONS WILL PRODUCE DIFFERENT OUTCOMES IN §1983
LITIGATION BASED SOLELY ON WHETHER THE CLAIM IS ASSERTED IN STATE COURT,
IT IS PRE-EMPTED PURSUANT TO THE SUPREMACY CLAUSE WHEN §1983 ACTION IS
BROUGHT IN STATE COURT. WITH REGUARD TO FEDERAL PRE-EMPTION OF STATE LAW
APPLICATION OF NOTICE OF CLAIMS COMMISSIONER OF CONNECTICUT,BURDENS THE
EXERCISE OF THE FEDERAL RIGHT BY FORCING CIVIL RIGHTS VICTIMS WHO SEEK
REDRESS IN STATE COURTS TO COMPLY WITH A REQUIREMENT THAT IS ABSENT IN
CIVIL RIGHTS LITIGATION IN FEDERAL COURTS. CONNECTICUT CLAIMS COMMISSION
NER APPROVAL IS NOT APPLICABLE IN §1983 UNIQUE REMEDY AGAINST STATE GO­
VERNMENTAL BODIES AND THEIR OFFICIALS BY CONDITIONING THE RIGHT OF RECOr
VERY SO AS TO MINIMIZE GOVERNMENTAL AND STATE AGENCY LIABILITY. CONNEC­
TICUT NOTICE OF CLAIMS COMMISSIONER APPROVAL STATUTE DISCRIMINATES AGAIN
NST THE FEDERAL RIGHT. U.S.CONGRESS NEVER INTENDED THAT THOSE INJURED
BY STATE OFFICIAL WRONGDOERS TO SUBMIT PERMISSION AS A CONDITION OF RE­
COVERY TO SUBMIT THEIR CLAIMS Tff. THE STATE OFFICIALS FOR THEIR INJURIES.
THE CONNECTICUT OFFICIALS INJURED THIS PLAINTIFF AND HIS INFIRM ELDERLY
(83) YEAR OLD MOTHERS 1st AMENDMENT RIGHTS OF FREEDOM OF ASSOCIATION,
SPEECH,RELIGION,AND DUE PROCESS OF LAW. THE DEFENDENTS AND ALL THE STATE
COURTS THAT RULED ON THIS CASE STATE I MUST ASK FOR PERMISSION FOR DAMA­
GES AS ALSO THE HIGH COURT STATED THAT CONNECTICUT CASES ARTICULATE FOR
PERMISSION FOR DAMAGES,USING STATE LAWS AND IGNORING FEDERAL LAWS TO
PREJUDICIALLY DISMISSING MY FEDERAL ACTION FOR DAMAGES FOR THE INJURIES
CONNECTICUT OFFICIALS IMPLEMENTED.THE DECISION TO SUBJECT STATE OF CONN­
ECTICUT SUBDIVISIONS TO LIABILITY. FOR VIOLATIONS OF FEDERAL RIGHTS,WAS
A CHOICE CONGRES MADE,AND IT IS A DECISION THAT THE STATE HAS NO AUTHO­
RITY TO OVERRIDE.

(8)

CONNECTICUT CLAIMS COMMISSIONER APPROVAL FOR FEDERAL VIOLATIONS AND IN­
JURIES IN §1983 ACTIONS FILED IN STATE COURT CANNOf BE APPROVED AS A
MATTER OF EQUITABLE FEDERALISM,JUST AS FEDERAL COURTS ARE CONSTITUTIONA­
LLY OBLIGATED TO APPLY STATE LAW TO CLAIMS,THE SUPREMACY CLAUSE IMPOSES
ON STATE COURTS A CONSTITUTIONAL DUTY TO PROCEED IN SUCH MANNER THAT ALL
THE SUBSTANTIAL RIGHTS OF THE PARTIES UNDER CONTROLLING FEDERAL LAW ARE
PROTECTED. A STATE LAW THAT PREDICTABLY ALTERS THE OUTCOME OF §1983 CLA­
IMS DEPENDING SOLELY ON WHETHER THEY ARE BROUGHT IN STATE OR FEDERAL CO­
URT WITHIN THE STATE IS OBVIOUSLY INCONSISTANT WITH THE FEDERAL LAW INT­
RASTATE UNIFORMITY,WHEN THERE IS A FEDERALLY CREATED CAUSE OF ACTION.
THE FEDERAL RIGHT CANNOT BE DEFEATED BY THE FORMS OF LOCAL PRACTICE.
(BROWN V.WESTERN R.CO.OF ALABAMA,338 U.S.294,296,70 S.CT.105,106,94L.ED.100(1949) . CONNECTICUT DEFENt)ENTS COUNSEL OF RECORD AND THE TRIAL
COURT HON.ABRAMS,STATE THAT THE PLAINTIFF REQUIRES CLAIMS COMMISSIONER
APPROVAL FOR DAMAGES,THIS VIOLATES THE SUPREMACY CLAUSE.THIS IS BARRED
UNDER THE SUPREMACY CLAUSE OF THE FEDERAL COSTITUTION. THE RELATIVE IM­
PORTANCE TO THE STATE OF ITS OWN LAW REQUIRING CLAIMS COMMISSIONER APP­
ROVAL IS NOT MATERIAL WHEN THERE IS A CONFLICT WITH VALID FEDERAL LAW,
FOR "ANY STATE LAW'*,HOWEVER CLEARLY WITHIN A STATES ACKNOWLEDGEMENT PO­
WER, WHICH INTERFERES WITH OR IS CONTRARY TO FEDERAL LAW MUST YIELD.
(FREE V.BLAND,369 U.S.663,666,82 S.CT.1089,1092,8,1.ed.2d.180(1962).
THE §1983 IS TO ENSURE THAT INJURED INDIVIDUALS WHOSE FEDERALLY OR STA­
TUTORY RIGHTS ARE ABRIDGED MAY RECOVER DAMAGES OR SECURE INJUNCTIVE RE-._
LIEF. (BURNETT V.GRATTON,468 U.S.42,55,104 S.CT.2924,2932,82 l.ed.2d.36(1984). THUS:§1983 PROVIDES "A UNIQUE FEDERAL REMEDY AGAINST INCURSIONS...UPON RIGHTS SECURED BY THE U.S.CONSTITUTION AND THE LAWS OF THIS NA­
TION." (MITCHUM V.FOSTER,407 U.S.225,239,92 S.CT.2151,2160,32 l.ed.2d705(1972).AND IT IS TO BE ACCORDED "A SWEEP AS BROAD AS ITS LANGUAGE".
(9)

(UNITED STATES V.PRICERS U.S. 787,801,86 S.CT.1152,1160,16 l.ed.2d.267(1966). CONNECTICUT CLAIMS COMMISSIONER APPROVAL IS NOT REQUIRED IN A
§1983 AN# INAPPLICABLE TO §1983 ACTIONS BROUGHT INTO STATE COURT.
(BROWN V.UNITED STATES,239 U.S.APP.D.C.345,n.6,742 F.2d.1498,1509 n.6.(1984). CONNECTICUT CLAIMS COMMISSIONER APPROVAL IS/ARE INAPPLICABLE TO
FEDERAL §1983 IN STATE COURT IN AN ANALYSIS OF TWO CRUCIAL RESPECTS;
FIRST: IT DEMONSTRATES THAT THE NOTICE OF CLAIMS COMMISSIONER REQUIREM­
ENT BURDENS THE EXERCISE OF THE FEDERAL RIGHT FORCING A CIVIL RIGHTS
VICTIMS WHO SEEK REDRESS IN STATE COURTS TO COMPLY WITH A REQUIREMENT
THAT IS ENTIRELY ANSENT FROM CIVIL RIGHTS LITIGATION IN FEDERAL COURTS.
ITS INCONSISTANT TO BOTH DESIGN AND EFFECT WITH THE COMPENSATORY AIMS
OF THE FEDERAL CIVIL RIGHTS LAWS.
SECOND: IT REVEALS THAT THE ENFORCEMENT OF SUCH STATUTES IN §1983 ACTIONS
BROUGHT IN STATE COURT WILL FREQUENTLY PRODUCE DIFFERENT OUTCOMES IN FE­
DERAL CIVIL RIGHTS LITIGATION BASED SOLELY ON WHETHER THAT LITIGATION
TAKES PLACE IN STATE OR FEDERAL COURT. STATES MAY NOT APPLY SUCH AN OUT­
COME DETERMINATIVE LAW WHEN ENTERTAINING SUBSTANTIVE FEDERAL RIGHTS IN
STATE COURT. CONNECTICUT CLAIMS APPROVAL CONFLICTS WITH THE VERY PURPOSE
OF §1983 LIABILITY TO COMPENSATE FOR CIVIL RIGHTS VIOLATIONS AND INJURY.
CONNECTICUT CLAIMS COMMISSIONER APPROVAL IS ENACTED PRIMARILY FOR BENE­
FIT OF GOVERNMENTAL AND STATE AGENCIES,WHICH IS INTENDED TO AFFORD SUCH
DEFENDENTS AN OPPORTUNITY TO PREPARE A STRONGER CASE. ONE DOES NOT REQU­
IRE A EXHAUSTED STATE ADMINISTRATIVE REMEDY OF ANY CLAIMS COMMISSIONER
APPROVAL BEFORE FILING §1983 IN STATE COURT.(PATSY V.BOARD OF REGENTS
457 U.S.496,102 S.CT.2557,73 L.ED.2d.1^2(1982).THE SUPREMACY CLAUSE IM­
POSES ON STATE COURTS A CONSTITUTIONAL DUTY TO "PROCEED IN SUCH A MANN­
ER THAT ALL THE SUBSTANTIVE RIGHTS OF THE PARTIES ARE PROTECTED. (GARR­
ETT V.MOORE-McCORMACK,CO. ,3l|7 U. S. 239,245,63 S. CT. 246,251,87 L. ED. 239(1942).

(10)

STATE COURTS ARE NOT FREE TO SIMPLIFY VINDICATE THE SUBSTANTIVE INTEREi?
STS UNDERLYING A STATE RULE OF CONNECTICUT CLAIMS COMMISSIONER APPROVAL
AT THE EXPENSE OF THE FEDERAL RIGHT. PRINCIPLES OF FEDERALISM,AS WELL
AS THE SUPREMACY CLAUSE,DICTATE THAT SUCH A STATE LAW MUST GIVE WAY TO
VINDICATION OF THE FEDERAL RIGHT WHENTHAT RIGHT IS ASSERTED IN STATE
COURT. (WILSON V.GARCIA,471 U.S.261,105 S.CT.1938,85 L.ED.2d.254(1985).
THE STATES CANNOT DISCRIMINATE AGAINST A CIVIL RIGHTS REMEDY. A STATE
OF CONNECTICUT CLAIMS APPROVAL TO BAR A CIVIL RIGHTS PETITIONER §1983
SUIT,WHICH IS IN REALITY "AN ACTION FOR INJURY TO PERSONAL RIGHTS".STATE
COURTS MUST ENTERTAIN A §1983 ACTION IF PLAINTIFF CHOOSES A STATE COURT
OVER A FEDERAL FORUM THAT IS ALWAYS AVAILABLE AS A MATTER OF RIGHT.
(MARTINEZ V.CALIFORNIA,444 U.S.277,283,n.7.100,S.CT.553,558(1980);fHE
PLAINTIFF (GAWLIK,JAN.M.),DOES NOT REQUIRE A CONNECTICUT CLAIMS COMMISIONER APPROVAL FOR A "DETAILED CLAIM FOR DAMAGES." THIS PLAINTIFF AND IN­
FIRM MOTHER,BOTH INJURED PARTIES,NEED ONLY TO RECITE THE FACTS GIVING
RISE TO THE INJURIES OF BOTH AND INDICATE AN INTENT TO HOLD THE DEPENDE­
NTS RESPONSIBLE FOR DAMAGES RESULTING FROM INJURY. THIS PLAINTIFFS DAMA­
GES AND RELIEF ARE INDICATED IN THE COMPLAINT. THE CONNECTICUT COURTS
ARE VIOLATING SUPREMACY CLAUSE STATING THAT CLAIMS APPROVAL REQUIRED AND
DISMISSED THIS FEDERAL §1983 ON THESE GROUNDS.THE ORIGINAL TRIAL COURT
(HON. JAMES ABRAMS) , AN EQCPERIENCED JUDGE KNOWS THAT A §1983 FILED IN THE
STATE COURT CANNOT BE DISMISSED AND IN HIS (MEMORANDUM OF DECISION/DOCKET#106.00),BUT,DUE TO HIS PREJUDICE AGAINST THIS PLAINTIFF STATED:(QUO­
TE) ; AS RELATES TO THE CLAIMS FOR MONETARY DAMAGES MADE AGAINST THE DEP­
ENDENTS IN THEIR OFFICIAL CAPACITIES ON STATE CLAIMS,SUCH CLAIMS ARE
BARRED BY SOVEREIGN IMMUNITY UNLESS IT HAS BEEN WAIVED OR AUTHORIZED
BY THE CLAIMS COMMISSIONER, (QUOTE-) . THE ORIGINAL TRIAL COURT (HON. ABRAMS)
AS A EXPERIENCED JUDGE KNOWS THIS IS A FEDERAL §1983 FILED IN STATE
(11)

COURT,AND THERE IS NO SOVEREIGN IMMUNITY IN A FEDERAL ACTION IN STATE
COURT,AND DEPENDENTS CAN BE SUED IN THEIR OFFICIAL CAPACITY FOR U.S.CONSTITUTION VIOLATIONS. (MONELL V.NEW YORK CITY DEPT. OF SOCIAL SER­
VICES,436 U.S.658,690,n.54,98 S.CT. (1978) .-HOLDS; THAT THE 11th AMEND­
MENT DOES NOT FORBID SUING STATE OFFICIALS FOR DAMAGES IN THEIR INDIVI­
DUAL AND OFFICIAL CAPACITIES,AND FOR DECLARATORY AND INJUNCTIVE RELIEF
IN BOTH CAPACITIES,. THE COURT (HON.ABRAMS),DISMISSED THIS FEDERAL §1983
FILED IN STATE COURT REQUIRING CLAIMS COMMISSIONER APPROVAL WHICH IS NOT
REQUIRED IN A FEDERAL CAUSE OF ACTION. THE SUPREMACY CLAUSE PROTECTS TH*
IS PLAINTIFFS ACTION FROM DISMISSAL AND THE CONNECTICUT COURTS DISMISSED
THIS FEDERAL §1983 ACTION VIOLATING THE SUPREMACY CLAUSE. PURSUANT TO
U.S.SUPREME COURT PRECEDENT CASE OF,(FELDER V.CASEY,487 U.S.131(1988).
NOTICE OF CLAIM STATUE/CLAIMS COMMISSIONER APPROVAL NOT REQUIRED TO A
FEDERAL §1983 CIVIL RIGHTS ACTIONS BROUGHT IN STATE COURTS.*
(APPENDIX(F)-FELDER V.CASEY,487 U.S.131(1988).
3.) DEPENDENTS VIOLATE DUE PROCESS OF 14th AMENDMENT DENYING PLAINTIFF
AND PLAINTIFFS MOTHER VISITATION RIGHTS OF ASSOCIATION GUARANTEED
BY THE 1st AMENDMENT OF THE U.S.CONSTITUTION AND THE BILL OF RIGHTS.
THE DUE PROCESS CLAUSE FORBIDS GOVERNMENTS,INCLUDING PRISON OFFICIALS :
DEPRIVING YOU OF LIFE,LIBERTY,OR PROPERTY,WITHOUT DUE PROCESS OF LAW.
DUE PROCESS ALSO PROTECTS THE FIRST,SIXTH,AND EIGHTH AMENDMENT. (DUN­
CAN V.LOUISIANA,391 U.S.145,147-148,88 S .CT.1444(1968):(DUNCAN V.POYTHRESS,657,f.2d.691,704(5th.cir.1981). THE TRIAL COURT OF THIS PLAINTIFF
DISMISSED A PROTECTIVE ORDER IN WHICH THIS PLAINTIFFS MOTHER DID NOT RE­
QUEST. THE PROTECTIVE ORDER WAS TERMINATED,AND PLAINTIFFS MOTHER REQUES­
TED THE TRIAL (JUDGE) FOR VISITATION OF HER SON (GAWLIK,JAN.M.). THE
PLAINTIFF AND HIS (83) YEAR OLD INFIRM MOTHER WERE DENIED PROCEDURAL DUE
PROCESS OF VISITATIION AND ALSO DENIED VISITATION DUE TO THE PREJUDICE
OF PRISON OFFICIALS AGAINST THIS PLAINTIFF AND HIS INFIRM MOTHER.
(12)

DENYING VISITS WITHOUT ANY HEARINGS,WITNESSES,PRESENTING EVIDENCE,COURT
TRANSCRIPTS,WITHOUT PROCEDURAL AND SUBSTANTIAL DUE PROCESS VIOLATES THE
SUPREMACY CLAUSE. THE DEFENDENTS ARE PREJUDICIAL TO THIS PLAINTIFF:ASTER
HIS SICK MOTHER (3) TIMES THIS PLAINTIFFS MOTHER REQUESTED THE DEFENDEDNTS FOR VISITATION OF HIS SON. A STATE AGENCY THAT DENIES A SICK (83)
YEAR OLD MOTHER

THAT IS PLEADING TO SEE HER SON AT CONTACT VISITS BEFORE

SHE DIES AND GOES TO (GOD),IS EVIL,CALLOUS,AND "SHOCKS THE CONSCIENCE",
AFTER A SICK MOTHERS REPEATED REQUESTS. (COUNTY OF SACRAMENTO V.LEWIS,523 U.S,883,849-49,118 S.CT.1708(1998). THE PLAINTIFF AND HIS INFIRM MO­
THER HAVE A CONSTITUTIONALLY PROTECTED RIGHT TO 1st AMENDMENT FREEDOM OF
ASSOCIATION. THE COURTS DID NOT IMPOSE DUE PROCESS OF LAW SANCTIONS THAT
ARE PRESENTLY IMPLEMENTED,THE DEFENDENTS ARE DOING THIS WITHOUT DUE PRO­
CESS. THE STATE OF CONNECTICUT HAS NO AUTHORITY WITHOUT PROCEDURAL DUE
PROCESS OVER AN INDIVIDUALS FREEDOM TO ENTER IN A FAMILY ASSOCIATION AND
RELATIONSHIP OF THE MOST INTIMATE TO THE MOST ATTENUATED OF PERSONAL AT-:
TACHMENTS WITH HIS MOTHER. (RUNYON V.McCRARY,427 U.S.160,187-89,96 S.CT.2586,2602-2603,49 L.ED.2d.415(1976). THE PLAINTIFF AND HIS INFIRM MOTHER
HAVE A CONSTITUTIONALLY PROTECTED RIGHT TO FAMILY VISITATION AND DUE PR­
OCESS OF LAW. THERE WAS NO DUE PROCESS OR PROCEDURAL HEARING IMPLEMENTED
TO ASK THE MOTHER ABOUT HER FEELINGS TOWARD HER SON (GAWLIK,JAN.M.).BOTH
HAVE A FIRST AMENDMENT RIGHT TO CORRESPOND INTIMATELY,EXPRESSION,RELIGI­
ON, FREEDOM OF SPEECH,AND VISITATION OF THE U.S.CONSTITUTION. (NAACP V.CLAIBORNE HARDWARE CO.,458 U.S.886,907-909,932-933,102 S.CT.3409,34223423,3436,73 L.ED.2d.1215(1982):(ABOOD V.DETROIT BOARD OF EDUCATION,431 U.S.209,231,97 S.CT.1782,1797,52 L.ED.2d.261(1997):(LARSON V.VALENTE,456 U.S.228,224-246,102 S.CT-.1673,1683,1684,72 L.ED.2d.33(1982) .
DEFENDENTS VIOLATE THIS PLAINTIFF AND HIS (83) INFIRM MOTHERS FIRST
(13)

AMENDMENT RIGHTS OF FREEDOM OF ASSOCIATION PROTECTED UNDER THE BILL OF
RIGHTS,FREEDOM OF SPEECH,RELIGION OF FAMILY,OF THE INTIMATE RELATIONSHIP
AND PROCEDURAL DUE PROCESS OF LAW UNDER THE 14th AMENDMENT OF THE U.S.CONSTITUTION DUE PROCESS CLAUSE. THE SUPREMACY CLAUSE PRE-EMPTS THIS CO­
URTS PROCEDURE OF STATE COMMON LAW AND REQUESTED TO BE HEARD AND PRESEN­
TED TO A IMPARTIAL JURY AS THIS PLAINTIFF REQUESTED AND DENIED A (JURYTRIAL) , OF THE FACTS,ALLEGATIONS,ECT. THE CONNECTICUT DEFENDENTS IN THIS
§1983 CIVIL RIGHTS ACTION,HAVE NOT IMPLEMENTED ANY HEARINGS OR REVIEWS,'
OR ANYTYPE OF INQUIRY FROM MOTHER. THE DEFENDENTS DENIAL OF HIS MOTHERS
IS TO THE ANIMUS OF THIS PLAINTIFF. THE COURT (HON.ABRAMS) IS AWARE THAT
A §1983 FILED IN STATE COURT CANNOT BE DISMISSED,AND YET,DISMISSED THIS
FEDERAL ACTION VIOLATING THE SUPREMACY CLAUSE. THIS DUE PROCESS VIOLATI­
ON OF ASSOCIATION,SPEECH,RELIGION,AND THE JURY MUST DECIDE THE FACTS AND
ALLEGATIONS UNDER THE SUPREMACY CLAUSE OF THIS ACTION IS PRE-EMPTED AND
THIS HONORABLE UNITED STATES SUPREME COURT MUST REMEDY THE VIOLATIONS OF
THE CONNECTICUT COURTS THAT DISMISSED THIS §1983 FILED IN STATE COURT.
THE DEFENDENTS ARE LIABLE FOR INJURY UNDER §1983,UNDER 14th AMENDMENT
DUE PROCESS. THE CONNECTICUT COURTS VIOLATED THE SUPREMACY CLAUSE DIS­
MISSING A FEDERAL §1983 FILED IN STATE COURT.
4.) THE PLAINTIFF AND HIS (83tYO) MOTHER INFIRM,WHERE PLAINTIFF IS THIRD
(3rd) PARTY ADVOCATE,DUE TO INFIRMITY IS PROTECTED PURSUANT TO 1st
AMENDMENT FREEDOM OF ASSOCIATION,BILL OF RIGHTS,RELIGION,SPEECH,DUEPROCESS OF THE 14th AMENDMENT DUE PROCESS CLAUSE OF INTIMATE RELATI­
ONSHIP WITH HIS INFIRM MOTHER PURSUANT TO (CAMACHO V. BRANDON), INWHEr?
RE PLAINTIFF IS THIRD PARTY ADVOCATE UNDER U.S.CONSTITUTION.
PURSUANT TO (CAMACHO V.BRANDON,317 f.3d.153(2003.2nd.cir),ALLOWS THIS
PLAINTIFF TO BE THIRD (3rd) PARTY ADVOCATE FOR HIS INFIRM ELDERLY MOTHER.
A PLAINTIFF 1IN A §1983 FILED IN STATE COURT GENERALLY HAS STANDING TO SUE
FOR THE RIGHTS OF ANOTHER WHEty PLAINTIFF DEMONSTRATES THAT, 1. ) INJURY- '
TO THE PLAINTIFF

2.)A CLOSE RELATIONSHIP BETWEEN THE PLAINTIFF AND THE

(14)

THIRD PARTY AND, 3.)SOME HINDERANCE TO THE THIRD PARTYS ABILITY TO PROTECT HIS OR HER OWN INTERESTS. THE PLAINTIFF DEMONSTRATED TO THE COURT T:
THAT THIS INJURES THE PLAINTIFF,THE RELATIONSHIP IS THE MOTHER (BLOOD)
OF THE PLAINTIFF,AND THE MOTHER BEING INFIRM AND SPEAKING LITTLE ENGLISH
TO PROTECT HER OWN INTERESTS AND RIGHTS THAT ARE BEING VIOLATED BY THE
DEPENDENTS.VPLAINTIFF HAS BEYOND A REASONABLE DOUBT THAT THIS PLAINTIFF IS.
AN ADVOCATE FOR HIS ELDERLY AND INFIRM MOTHER. THIS IS A FEDERAL §1983
FILED IN STATE COURT,NOT STATE HERITAGE LAWS AS CAUSES OF ACTION IN STATE
COURT,WHICH VIOLATES THE SUPREMACY CLAUSE. THE PLAINTIFF AND HIS ELDERLY
MOTHER HAVE HAD BOTH THEIR CONSTITUTIONAL RIGHTS VIOLATED UNDER FEDERAL
CIVIL RIGHTS, THE COURTS!IN CONNECTICUT JUDGEMENT STATED THAT THE COURT
T~T

I '.S

IS WITHOUT JURISDICTION OVER CLAIMS,ANY,THE PLAINTIFF IS MAKING ON BEHALF
OF HIS MOTHER. IN THIS FEDERAL §1983,ON THE CONTRARY,UNDER FEDERAL LAW,
AND THIS IS A FEDERAL ACTION,THAT IS PURSUANT TO,(CAMACHO V.BRANDON,317F.3d.153(2nd.cir.2003),THIS COURT HAS JURISDICTION OF THIS PLAINTIFFS
CLAIMS FOR HIS INFIRM ELDERLY MOTHER AS THIRD PARTY ADVOCATE,BUT,INSTEAD
OF USING FEDERAL LAW THAT IS WARRENTED UNDER THE SUPREMACY CLAUSE,THE CO­
URTS USED STATE COMMON LAWS THAT ARE CONTRARY TO THE FAVORABLE OUTCOME
OF THIS PLAINTIFFS FEDERAL ACTION FILED IN STATE. COURT. THE DEFENDENTS
COUNSEL STATED IN THEIR MOTION TO DISMISS THAT:THAT AN INMATE DOES NOT
HAVE LIBERTY INTERESTS IN VISITATION.THIS IS INCORRECT.THIS IS A FEDERAL
ACTION §1983 FILED IN STATE COURT,AND CONNECTICUT LAWS,CASE LAWS,CONSTI­
TUTIONS ,COURT JUDGEMENTS OF STATE DO NOT APPLY. THE CONNECTICUT COURTS
HAVE JURISDICTION OVER THE PLAINTIFF MAKING CLAIMS ON BEHALF OF HIS INFI­
RM MOTHER. THE CONNECTICUT COURTS ARE VIOLATING THE SUPREMACY CLAUSE OF
THE U.S.CONSTITUTION IF THE COURTS DO NOT ALLOW THIS FEDERAL (3rd) PAR­
TY ADVOCATE FOR HIS MOTHER,AND HAS DEMONSTRATED THAT FEDERAL LAW PRO­
TECTS THIS PLAINTIFF AND HIS SICK MOTHER IN THIS FEDERAL CIVIL ACTION,
(15)

AND PLAINTIFF AS THIRD PARTY ADVOCATE FOR HIS INFIRM MOTHER. THIS PLAIN­
TIFF HAS STANDING TO BRING THIRD PARTY ADVOCATE UNDER A FEDERAL CAUSE OF
ACTION,AND THIS ACTION IS A FEDERAL §1983.THE PLAINTIFF AND HIS MOTHER
HAVE A CONSTITUTIONAL RIGHT OF EXPRESSION,RELIGION TO TALK TO EACH OTHER
FACE TO FACE ABOUT GOD AS THIS PLAINTIFF AND INFIRM MOTHER,FREEDOM OF EX­
PRESSIVE ASSOCIATION, AND BOTH CANNOT BE DISCRIMINATED AS U.S. CITIZENS
FREE AND BOUND OF THE CONSTITUTIONAL PROTECTION OF FREEDOM OF ASSOCIAT­
ION , CONSTITUTIONAL RIGHTS TO FREE SPEECH WITH HIS MOTHER. THE UNITED

T

STATES SUPREME COURT HAVE REFERED TO CONSTITUTIONALLY7 PROTECTED "FREEDOMOF SPEECH",AS PROTECTED LIBERTIES. THE U.S.SUPREME COURT HAS CONCLUDED
THAT CHOICE TO ENTER INTO MAINSTREAM CERTAIN INTIMATE RELATIONSHIPS MUST
BE SECURED AGAINST UNDUE INTRUSION BY THE STATE OF CONNECTICUT BECAUSE
OF THE ROLE OF SUCH RELATIONSHIPS IN SAFEGUARDING THE INDIVIDUAL FREEDOM
THAT IS CENTRAL TO THE U.S.CONSTITUTION SCHEME.FREEDOM OF ASSOCIATION RECIEVES PROTECTION AS A FUNDAMENTAL ELEMENT OF PERSONAL LIBERTY. THIS PL­
AINTIFF AND HIS INFIRM MOTHER IS PROTECTED UNDER THE CONSTITUTION AND
FREEDOM OF ASSOCIATION IS PROTECTED ACTIVITIES UNDER THE FIRST AMENDMENT
AND DUE PROCESS CLAUSE. THE CONSTITUTION GUARANTEES FREEDOM OF ASSOCIA­
TION OF THIS KIND AS AN INDISPENSABLE MEANS OF PRESERVING OTHER INDIVID­
UAL LIBERTIES. THE BILL OF RIGHTS IS DESIGNED jlO SECURE INDIVIDUAL LIBER-7
TY, IT IS FORMULATED OF THE PRESERVATION OF CERTAIN KIND OF HIGHLY PERS07NAL RELATIONSHIPS AS THIS (PLAINTIFF & MOTHER) A SUBSTANTIAL MEASURE OF
SANCTUARY FROM UNJUSTIFIED INTERFERENCE BY THE STATE OF CONNECTICUT = DEFENTS. (PIERCE V.SOCIETY OF SISTERS,268 U.S.510,534-535,45 S.CT.571,57369,l.ed.1070(1925):(MEYER V.NEBRASKA,262 U.S.390,399,43 S.CT.625,626, *
67 L.ED.1042(1923),FREEDOM OF INTIMATE ASSOCIATION AND FREEDOM OF EXPR­
ESSIVE ASSOCIATION IS PROTECTED UNDER THE U.S.CONSTITUTION. THE PLAIN­
TIFF AND HIS MOTHER ARE PROTECTED OF PERSONAL BONDS,IDEAS,BELIEFS,
(16)

RELIGION,AND INDIVIDUAL INTIMATE RELATIONSHIP AS MOTHER AND SON,AND THE
STATE OF CONNECTICUT DEPENDENTS CANNOT INTERFERE. (ZABLOCKI V.REDHAIL,434 U.S.374,383-386,98 S.CT.673,679-681,54 1.ed.2d.618(1978):(MOORE V.EAST-CLEVELAND,431 U.S.494,503-504,97 S.CT.1932,1937-38,52,l.ed.2d.531(1977):(WISCONSIN V.Y0DER,406 U.S.205,232,92 S.CT.1826,1541,32,l.ed.2d.(1971):(GRISWOLD V.CONNECTICUT,381 U.S.479,482-485,85 S.CT.1678,16801682,14 L.ED.@D.510(1965). THE U,S.CONSTITUTION FREEDOM OF ASSOCIATION,
EXPRESSION,RELIGION,SPEECH,INTIMATE’ EXPRESSION SHELTERS SUCH RELATION­
SHIPS, AS IN THIS PLAINTIFFS MOTHER AND SON RELATIONSHIP,REFLECTS THE RE­
ALIZATION THAT INDIVIDUALS DRAW MUCH OF THEIR EMOTIONAL ENRICHMENT FROM
CLOSE TIES WITH OTHERS. PROTECTING THESE RELATIONSHIPS FROM UNWARRENTED
STATE OF CONNECTICUT INTERFERENCE THEREFORE SAFEGUARDING THE ABILITY IN­
DEPENDENTLY TO DEFINE ONES IDENTITY THAT IS CENTRAL TO ANY LIBERTY AND
RIGHT THAT THIS. PLAINTIFF AND HIS MOTHER HAVE AS MOTHER AND SON INTIMATE
RELATIONSHIP. (QUILLION V.ORGANIZATION OF FOSTER FAMILIES,431 U.S.816844,97 S.CT,2094,2109,53,1.ed.2d.14(1977): (STANLEY V.GEORGIA,-394, U.S.557,564,89 S.CT.1243,1247,22 l.ed.2d.542(1969). THE PERSONAL AFFILIATIO­
NS THAT EXEMPLIFY PERSONAL RELATIONSHIPS ARE ENTITLED TO CONSTITUTIONAL
PROTECTION,ARE THOSE THAT THE CREATION AND SUSTENANCE OF A FAMILY,AS IN
THIS PLAINTIFF AND HIS INFIRM MOTHER OF (83) YEARS OLD. FAMILY RELATION­
SHIPS BY THEIR NATURE INVOLVE DEEP ATTACHMENTS AND COMMITMENTS WITH WHOM
ONE SHARES NOT ONLY A SPECIAL BOND,BUT,ALSO THOUGHTS,EXPERIANCES,AND BE­
LIEFS DISTINCTLY PERSONAL ASPECTS OF LIFE,AMOUNG THE THINGS,THEREFORE.
THEY ARE DISTINGUISHED BY SUCH ATTRIBUTES AS RELATIVE SMALLNESS,A HIGH
DEGREE OF SELECTIVITY INI DECISIONS TO BEGIN AND MAINTAIN THE AFFILIATION
AND SECLUSION FROM OTHERS IN CRITICAL ASPECTS OF THE RELATIONSHIP. AS A
GENERAL MATTER,ONLY RELATIONSHIPS WITH THOSE SORT OF QUALITIES ARE LIKE­
LY TO REFLECT UNDERSTANDING OF FREEDOM OF ASSOCIATION AS AN INTRISTIC
(17)

AND NOT THE CONNECTICUT COURTS WITH PREJUDICE THAT DENIED THIS PLAINTIFFS
RIGHT TO A JURY TRIAL. THIS PLAINTIFF HAS PLACED THE DEPENDENTS IMMUNI­
TIES WITHIN THE TRIAL JURY,AND THAT THIS CASE IS FACTUAL,THE FACTS MUST
BE PRESENTED TO THE TRIAL JURY FOR IF ANY IMMUNITIES. THE ALLEGATIONS
AGAINST THE DEPENDENTS AND THE FACTS ARE TO BE DECIDED BEFORE A JURY TRIAL. (McCOY V.HERNANDEZ,203 f■3d.371,375,(5th.cir.200):HOLDS;THAT COURTS
HAVE SAID THAT IN A FACTUALLY CONTESTED CASE GOING TO A JURY,THE QUESTS
ONS OF QUALIFIED IMMUNITY SHOULD BE DECIDED BY THE JURY.(KEYLON V.CITYOF ALBUQUERQUE,535 f .3d. , 1210,121^-18(10th.cir.2008!) :HOLDS ; QUALIFI ED IM­
MUNITY MAY BE FOR THE JURY TO DECIDE. GENERALLY MEANS THAT THE PLAINTIFF
ALLEGATIONS ABOUT THE DEFENDENTS ACTIONS ARE TRUE.L THEY VIOLATED CLEARLY
ESTABLISHED LAW,IF NOT TRUE,THEY DID NOT VIOLATE ESTABLISHED LAW. THE
FACTS MUST BE RESOLVED IN ORDER TO DECIDE QUALIFIED IMMUNITY BEFORE A J.!
JURY ONLY. THIS PLAINTIFF PRESENTED FEDERAL CASE LAWS,AND THIS IS A §1983
FILED IN STATE COURT AND JUDGEMENTS THAT WHEN A PLAINTIFF DEMANDS A TRIAL
JURY,THE FACTS fflst BE ESTABLISHED TO THE TRIAL JURY FOA ANY IMMUNITY
OR NO IMMUNITY,AND THE LAWS ACCROSS THE UNITED STATES ARE LAWS THAT GOV­
ERN IMMUNITY UNDER THE SUPREMACY CLAUSE AND PRE-EMPTS ALL STATE JUDGE­
MENTS AND STATE COMMON LAW. (NOVITSKY V.CITY OF AURORA,491,f.3d.12441255-56(10th.cir.2007):HOLDS;THAT VIOLATIONS OF §1983 LAW IS CLEARLY EST­
ABLISHED, IF PLAINTIFF PRESENTS LAWS FROM OTHER CIRCUITS THAT IS ON "POI­
NT'.' THE PLAINTIFF PRESENTS U.S.SUPREME COURT CASES AND OTHER CIRCUITS
THAT ARE ON POINT THAT CLARIFY' THAT ONLY A TRIAL JURY CAN DECIDE THE FAC­
TS, ALLEGATIONS, AND EVIDENCE ON THE IMMUNITIES OF THE DEFENDENTS.CIRCUITS
ACROSS THE UNITED STATES OF AMERICA AND THE UNITED STATES SUPREME COURT
ALL HAVE RULED THAT ANY IMMUNITY MUST BE PRESENTED BEFORE A TRIAL JURY
IF PLAINTIFF REQUESTS/DEMANDS A TRIAL JURY IN FEDERAL CIVIL RIGHTS CASE.

(21)

THIS PLAINTIFF AND HIS (83) YEAR OLD INFIRM MOTHER HAS SUFFERED INJURY
COMPENSATABLE IN §1983 CIVIL RIGHTS VIOLATIONS OF DEPRIVATION OF CONSTI-U
TUTIONAL PROTECTIONS OF FREEDOM OF ASSOCIATION OF A INTIMATE RELATION—
SHIP OF MOTHER AND SON. THE DEFENDENTS ARE LIABLE FOR THE DAMAGES THIS
PLAINTIFF HAS PRESENTED IN THE COMPLAINT AND AS THE MOTHERS (3rd) PARTY
ADVOCATE UNDER (CAMACHO V.BRANDON) DUE TO THE MOTHERS INFIRMITY THIS FEDB
ERAL CIVIL COMPLAINT MUST BE PRESENTED TO THE JURY AND CANNOT BE DISMIS­
SED BY THE STATE COURTS IN THE STATE OF CONNECTICUT. THIS PLAINTIFF HAS
presented:TO

THE court that the united states supreme court has noted the

FOLLOWING CONCERNING INMATES CONSTITUTIONAL RIGHTS. "CONVICTED” PRISONERS
DO NOT FORFEIT ALL CONSTITUTIONAL PROTECTION BY REASON OF THEIR CONVIC­
TION AND CONFINEMENT IN PRISON. (BELL V.WOLFISH,441 U.S.520,545(1979):(JONES V.N.C.PRISONERS LABOR UNION,433 U.S.119,129(1977);(MEACHUM V.FANO,427 U.S.215,225(1976):HOLDS;(QUOTE/CHIEF JUSTICE REINQUIST),THERE
IS NO IRON CURTAIN DRAWN BETWEEN THE U.S.CONSTITUTION AND THE PRISONS OF
THIS COUNTRY. (WOLF,418 U.S.at 555-56). IN FACT THE SUPREME COURT HELD
THAT .-SENTENCED PRISONERS ENJOY FREEDOM OF SPEECH, RELIGI ON, AND FREEDOM OF
ASSOCIATION UNDER THE FIRST AND FOURTEENTH AMENDMENTSTV.THEY ARE PROTECTS
ED AGAINST INVIDIUS DISCRIMINATION ON THE BASIS OF RACE UNDER THE EQUAL
PROTECTION CLAUSE OF THE FOURTEENTH AMENDMENT...AND THAT THEY MAY CLAIM-.
THE PROTECTION OF THE DUE PROCESS CLAUSE TO PREVENT ADDITIONAL DEPRIVA­
TION OF LIFE,LIBERTY,OR PROPERTY WITHOUT DUE PROCESS. THIS PLAINTIFF AND
HIS INFIRM MOTHER HAVE BEEN INJURED BY THE DEFENDENTS FOR NEARLY A DECADE
TEN YEARS,DENYING VISITS WITH EACH OTHER CAUSING INJURY BEYOND EVIL,CA­
LLOUS , THAT SHOCKS THE CONSCIENCE. THIS IS AN ANIMUS CASE THAT THE COURT
OF CONNECTICUT MUST ALLOW A JURY TRIAL,AND NOT DISMISS AS.THE COURTYHAS
IN THIS CASE VIOLATING THE SUPREMACY CLAUSE AND DISMISSING THIS FEDERAL
CASE.THIS IS A DISMISSED FEDERAL §1983 CASE DISMISSED BY ALL THE COURTS
(22)

IN CONNECTICUT VIOLATING THE SUPREMACY CLAUSE.'.'PLAINTIFF DEMANDED JURY
TRIAL TO BE DECIDED FOR DAMAGES,INJUNCTIVE AND DECLARATORY JUDGEMENTS
AND THE COURT VIOLATED SUPREMACY CLAUSE DISMISSING §1983 IN STATE COURT
WITH PREJUDICE AGAINST INCARCERATED INDIVIDUALS IN CONNECTICUT AS THIS
IS WHAT CONNECTICUT COURTS DO,THEY ARE IN AS THEY SAY:KUM-BA-YA,WE ARE
ALL ONE AND STICK TOGETHER,THIS IS CONNECTICUT. PLAINTIFF APPEALS TO THE
HONORABLE UNITED STATES SUPREME COURT. TO RESPECTFULLY REVERSE THE CONNE­
CTICUT JUDGEMENT DUE TO THE VIOLATION. OF SUPREMACY CLAUSE IN WHERE THE
LAW OF THE LAND PRE-EMPTS UNDER U.S.CONSTITUTION OF THE UNITED STATESC0F
AMERICA.
5.) THE SUPREMACY CLAUSE AND PRE-EMPTION OF THE U.S.CONSTITUTION APPLIED
TO THIS PLAINTIFFS §1983 CIVIL RIGHTS ACTION IN STATE COURT/ANALYSIS.
(THE SUPREMACY CLAUSE AND PRE-EMPTION)
PRE-EMPTION INVOLVES THE ENFORCEMENT OF THE SUPREMACY CLAUSE WHICH PRO­
VIDES THAT THE LAWS AND TREATIES OF THE UNITED STATE,"SHALL BE THE LAW
OF THE LANDV. . .ANYTHING tON THE U. S. CONSTITUTION OR LAWS OF ANY STATE TO
THE CONTRARY NOTWITHSTANDING. "U.S.CONST.,ART,VI.CL.2." UNDER THE SUPRE­
MACY CLAUSE,"STATE LAWS THAT CONFLICT WITH FEDERAL LAW WITHOUT EFFECT".
(ALTRIA V.GROUP INC. V.GOOD,555 U. S . 70,76(2008!) : (GIBBONS V.OGDEN, 22 U.S.1211(1824). THE APPROPRIATE APPLICATION OF THE SUPREMACY CLAUSE IS TO .
SUCH ACTS OF THE STATE LEGISLATORS... ENACTED IN THE EXECUTION OF ACKNOW­
LEDGED STATE POWERS,THAT INTERFERE WITH,OR ARE CONTRARY TO THE LAWS OF
CONGRESS,MADE IN PURSUANCE OF THE CONSTITUTION... MUST YIELD TO IT.
THE "STATE LAWS" IN QUESTION INCLUDE MORE THAN JUST STATUTES. ALSO PRE-i.
EMPTED BY FEDERAL LAW ARE ACTIONS OF STATE LEGISLATORS,EXECUTIVES,JUDIC5
IAL BRANCH OFFICIALS AND STATE COURTS THAT CONFLICT WITH FEDERAL LAW.
(COUMO V. CLEARING HOUSE ASS'N,L.L.C.,557 U. S. 519,536(20091) . PRE-EMPTION
PRINCIPLES DENY STATE AUTHORITY TO ACT IN A WAY THAT WOULD UNDERMINE THE
PURPOSE OF FEDERAL LAW. (RIEGEL V.MEDTRONIC,INC.,552 U.S.312,323.30(2008).
(23)

A FEDERAL LAW PRE-EMPTS STATE LAW. CONGRESS MAY "OCCUPY THE FIELD OF SU­
PREMACY CLAUSE THEREBY PRE-EMPTING ALL CONTRARY STATE LAW". CONGRESS INt
TENT TO OCCUPY THE SUPREMACY CLAUSE CAN BE INFERRED FROM THE FRAMEWORK
OF AUTHORITY SO PERVASIVE... THAT CONGRESS LEFT NO ROOM FOR STATES TO DO­
MINATE THE FEDERAL SYSTEM,WILL BE PRECLUDED ENFORCEMENT OF STATE LAWS.
(ARIZONA V.UNITED STATES,567 U.S.387,399(2012).A FEDERAL LAW MAY CONFL­
ICT WITH STATE LAW,THEREBY PRE-EMPTING IT. (CROSBY V.NAT.L.FOREIGN TRA­
DE COUNCIL,530 U.S.363,387(2000). CONFLICT PRE-EMPTION INVOLVES SITUATI­
ONS IN WHICH "COMPLIANCE WITH BOTH FEDERAL AND STATE REGULATIONS IS A
PHYSICAL IMPOSSIBILITY,AND THOSE INSTANCES WHERE THE CHALLENGED STATE LAW
STANDS AS AN OBSTCLE TO THE ACCOMPLISHMENT AND EXECUTION OF THE FULL PU­
RPOSES AND OBJECTIVES OF CONGRESS. THE ORIGINAL PURPOSE OF §1983 WAS TO
INTERPOSE THE FEDERAL COURTS BETWEEN THE STATES AND THE PEOPLE,AS GUARD­
IANS OF THE PEOPLES RIGHTS...TO PROTECT THE PEOPLE FROM UNCONSTITUTION. AL ACTION UNDER COLOR OF STATE LAW."WHETHER THAT ACTION BE EXECUTIVE,LEGISLATIVE,OR JUDICIAL". (MITCHUM V.FOSTER,407 U.S.225,240(1972).SECTION
§1983 WAS ORIGINALLY ENACTED AS PART OF THE KU KLUX KLAN ACT OF (APRIL20th,1871),§1,17 stat.13.CONGRESS GOAL IS OF CREATING FEDERAL JUDICIAL T
REMEDY AGAINST VIOLATIONS OF CITIZENS FEDERAL RIGHTS BY STATE OFFICIALS.
CONGRESS'S PROPONENTS OF THE LEGISLATION NOTED THAT STATE COURTS WERE BEr
ING USED TO HARASS AND INJURE INDIVIDUALS,EITHER BECAUSE THE STATE COURTS
WERE POWERLESS TO STOP DEPRIVATIONS OR WERE IN LEAGUE WITH THOSE WERE
BENT UPON ABROGATION OF FEDERALLY PROTECTED RIGHTS. "THE ULTIMATE RESULTOF THE PASSAGE OF THE KLU KLUX KLAN ACT WAS THAT"-THE ROLE OF THE FEDERAL
GOVERNMENT AS A GUARANTOR OF BASIC FEDERAL RIGHTS AGAINST STATE POWER
WAS CLEARLY ESTABLISHED.THE §1983 IS TO DETER STATE ACTORS FROM RISING
THE BADGE OF AUTHORITY TO DEPRIVE INDIVIDUALS OF THEIR FEDERALLY PRO­
TECTED AND GUARANTEED RIGHTS AND TO PROVIDE RELIEF TO VICTIMS IF SUCH
DETERRENCE FAILS.

(24)

(CITY OF NEWPORT V.FACTS CONCEPTS,INC.,453 U.S.247,268(1981). THUS,
THE FEDERAL INTEREST IMPLICATED IN SECTION §1983 IS TO COMPENSATE THE
VICTIMS CIVIL RIGHTS VIOLATIONS AND TO DETER STATE OFFICIALS FROM COMM­
ITTING SUCH VIOLATIONS IN THE FIRST INSTANCE,AND THE FUTURE. THE HONO­
RABLE COURTS OF CONNECTICUT IS BOUND BY THE U.S.CONSTITUTION SUPREMACY
CLAUSE AND IS PRE-EMPTED USING STATE COMMON LAW,OF THE PLAINTIFFS §1983
FILED IN STATE COURT OF CONNECTICUT. THE U.S.CONSTITUTION IS "THE LAW OFTHE LAND",AND THE CONNECTICUT COURTS MUST ABIDE BY §1983 FEDERAL LAWS.
THE UNITED STATES SUPREME COURT MUST NOT EVER ALLOW THE STATE OF CONN­
ECTICUT OR ANY OTHER STATE TO VIOLATE THE SUPREMACY CLAUSE AND IGNORE
THE U.S.CONSTITUTION. IT BEGINS WITH ONE CASE,THEN ANOTHER,AND THEN IT
IS SO OUT OF CONTROL ALLOWING STATES TO DO WHAT THEY PLEASE AGAINST THE
CITIZENS OF THE UNITED STATES,AND THE U.S.CONSTITUTION JUST BECOMES ONLY
A PIECE OF PAPER WITHOUT MEANING. THIS PETITIONER RESPECTFULLY REQUESTS
THAT THE HONORABLE COURT REVERSE THIS PLAINTIFF SUPREMACY CLAUSE VIOLA­
TIONS AND PROPERLY RULE ON THIS §1983 FILED IN STATE COURTS.J
(APPEWDIX(H)-U.S.CONSTITUTION/ARTICLE VI,(SUPREMACY CLAUSE).
7.) THIS IS A FEDERAL CIVIL RIGHTS 42 U.S.C.§1983 ACTION FILED IN STATE
COURT OF THE VIOLATIONS WITHIN THE U.S.CONSTITUTION,THE DEPENDENTS
ARE RELYING ON STATE JUDGEMENTS AND STATE COMMON LAW WHICH IS NOT
APPLICABLE WITHIN A §1983 CIVIL RIGHTS ACTION,DEFENDENTS ENTIRE IS
BASED ON STATE COMMON LAW AND VIOLATES THE SUPREMACY CLAUSE OF U.S.
THE DEFENDENTS,DEFENDENTS COUNSEL AND THE COURTS OF CONNECTICUT,DISMISS­
ING THIS §1983, IS BASED ON STATE JUDGEMENTS OF STATE COMMON LAWS,CON­
STITUTIONS, STATE CAUSES OF ACTIONS WITHIN THE STATE OF CONNECTICUT. DUE
TO THAT THIS IS A FEDERAL ACTION IN STATE COURTS,STATE OF CONNECTICUT
RULINGS, JUDGEMENTS WITHIN COURTS, STATE OF CONNECTICUT CASE LAWS, DECISI­
ONS LEGISLATIVE,EXECUTIVE,ADMINISTRATIVE DECISIONS,EVEN THE STATE OF
CONNECTICUT CONSTITUTION,IS PRE-EMPTED BY THE SUPREMACY CLAUSE OF THE
UNITED STATES CONSTITUTION. THIS §1983 IS FEDERAL WITHIN THE STATE COURT
AND ONLY THE FEDERAL CONSTITUTION AND FEDERAL LAWS MUST BE APPLIED AS
AUTHORITY IN THIS FEDERAL ACTION.
(215)

THE DEPENDENTS FOR THE RECORD STATED THAT THERE IS NO SUBJECT MATTER
JURIDICTION,AND THEY HAVE SOVEREIGN AND STATUTORY IMMUNITY. THIS IS A Jr
FEDERAL ACTION AND IN STATE COURT ONLY FEDERAL CITATIONS,FEDERAL LAWS,AND FEDERAL JUDGEMENTS OF THE U.S.CONSTITUTION AND U.S.COURTS,AND OTHER
CIRCUIT COURTS JUDGEMENTS ARE ONLY BINDING AND APPLICABLE IN THIS PLA­
INTIFFS §1983 ACTION FILED IN STATE COURT.THE DEPENDENTS STATE THAT ALL
OFFICIAL CAPACITIES MUST BE DISMISSED DUE TO SOVEREIGN IMMUNITY. THIS IS
A FEDERAL §1983 AND THE PROTECTION OF SOVEREIGN IMMUNITY IN ALL FEDE­
RAL ACTION IS BARRED. THE DEFENDENTS "MOTION TO DISMISS STANDARD IS VOID"
AND BARRED. THE JURISDICTION.OVER SUBJECT MATTER USING STATE CASE LAWS
IS PRE-EMPTED BY THE SUPREMACY CLAUSE OF FEDERAL DOCTRINES,IN WHICH IS
THE AUTHORITY OF THIS ACTION. THE DEFENDENTS USING STATE JUDGEMENTS RE­
NDERS THEIR MOTION TO DISMISS AS NULL,AS WITH THE ALL THE CONNECTICUT
COURTS RULINGS KNOWINGLY DISMISSING A §1983 FEDERAL ACTION IN STATE CO­
URT. AN EXPERIENCED JUDGE AND JUDGES DISMISSING A FEDERAL CIVIL ACTION
IN STATE COURT REFLECTS PREJUDICE. THE PLAINTIFF ADVOCATING FOR INFIRM
MOTHER AS THIRD PARTY AS A CLOSE RELATIONSHIP IS PROTECTED UNDER FEDERAL
LAW. (CAMACHO V.BRANDON,31 \t-, f.3d. 153,159(2nd.cir. 2003) ,THUS,THE CONNECTS
icutCourts dismissing this

§1983 violates the supremacy clause due to

ALL THE COURTS USING STATE STATUTES,JUDGEMENTS,STATE COMMON LAW DOES NOT
APPLY AND IS INAPPLICABLE AND NOT RELEVANT TO THIS PLAINTIFFS §1983 FEDS
ERAL CIVIL RIGHTS ACTION FLLED IN STATE COURT,AND IS PRE-EMPTED BY THE
SUPREMACY CLAUSE OF THE UNITED STATES CONSTITUTION. "THE LAW OF THE LAND".
8.f? THE CONNECTICUT STATE COURTS RULINGS USING STATE STATUTES,JUDGEMENTS,
CASE LAWS,CONSTITUTIONS,VIOLATES THE SUPREMACY CLAUSE U.S.CONSTITUTION
ALL,THE STATE COURTS USING CONNECTICUT GENERAL STATUTES AND IN ITS RULINGS
VIOLATES THE SUPREMACY CLAUSE. THE ORIGINAL TRIAL COURT (HON.ABRAMS),IN
ITS MEMORANDUM OF DECISION STATED IN THEIR INDIVIDUAL CAPACITIES ARE
(26)

BARRED BY,(CONNECTICUT.GENERAL.STATUTE.§4-185ft,WHICH PROVIDES AS FOLLOWS
IN WHOLE:"NO STATE OFFICER OR EMPLOYEEESHALL BE PERSONALLY LIABLE FOR Aii
ANY DAMAGES OR INJURY,NOT WANTON,RECKLESS OR MALICIOUS,CAUSED IN THE
DISCHARGE OF HIS OR HER DUTIES WITHIN THE SCOPE OF HIS OR HER EMPLOYM­
ENT". THIS STATUTE WOULD EVEN ALLOW THE DEATH OF A INCARCERATED INDIVI­
DUAL IN THE COURSE OF STATE OF CONNECTICUT EMPLOYMENT WITHOUT ANY TYPE
OF ACCOUNTABILITY. THIS IS HOW BARBERIC THE STATE OF CONNECTICUT IS.
ALL THE COURTS USING THIS STATUTE ON THE RULING AGAINST THE PLAINTIFF
VIOLATES THE SUPREMACY CLAUSE,AND STATE LAWS DO NOT APPLY AND IS PRE­
EMPTED BY FEDERAL LAWS,CONSTITUTIONS,ECT. THE STATE RULINGS AGAINST THE
PLAINTIFF CANNOT STAND,AS STATE STATUTES ARE INAPPLICABLE IN §1983. THE
ORIGINAL TRIAL COURT MADE AND RULED WITH A IRRATIONAL RULING STATED:
"THE U.S.SUPREME COURT HAS TAKEN THE VIEW THAT CONGRESS DID NOT INTEND
TO DEFEAT TRADITIONAL NOTIONS OF SOVEREIGN IMMUNITY IN ENACTING §1983','
THIS RULING AND STATEMENT IS A LANGUAGE THAT IS NO WHERE INTHE U. Si.COURT
CASES,ECT,AND THE ORIGINAL TRIAL COURTS AND STATE COURTS DOIAS THEY WANT.
THE STATE COURTS AND DEFENDENTS ANIMUS TOWARDS THIS PLAINTIFF AND HIS
INFIRM ELDERLY MOTHER BY THE STATE OF CONNECTICUT COURTS,DEPT.OF CORREC­
TION ,DEFENDENTS,IS AN ACTION THAT IS UNCONSTITUTIONAL UNDER THE U.S.CON­
STITUTION OF THE UNITED STATES OF AMERICA.PHE PETITIONER RESPECTFULLY
REQUESTS THAT THE U.S.SUPREME COURT REVERSE JUDGEMENT DUE TO THE SUPRE­
MACY CLAUSE VIOLATIONS AND THAT THE STATE COURTS ADHERE TO FEDERAL LAW
AND JURISPRUDENCE WHEN A §1983 IS FILED WITHIN THE STATE COURTS.
9.) PLAINTIFF AND INFIRM MOTHER ARE PROTECTED UNDER 1st AMENDMENT FREEDOM
OF RELIGION,THE PLAINTIFF AND MOTHER HAVE RELIGIOUS BOND MOTHER/SON.
THE PLAINTIFF AND MOTHER HAVE A RELIGIOUS RELATIONSHIP IN ADDITION TO BE­
ING MOTHER AND SON. THE PLAINTIFF RAISED AS A CATHOLIC BY HIS BELOVED MO­
THER AND BY HIS MOTHER WAS INSTILLED WITH STRONG CATHOLIC ROOTS,IN WHERE
(27)

PLAINTIFF WAS SENT TO A CATHOLIC SCHOOL AND PLAINTIFF WAS AN ALTER BOY
SERVING THE CATHOLIC PRIESTS AT CATHOLIC MASSES IN SERVICES. THE MOTHER
A DEVOUT CATHOLIC HAS STRONG CATHOLIC ROOTS BACK IN POLAND INWHERE THIS
PLAINTIFF AND MOTHER BOTH AND FAMILY RITUALLY ATTENDED MASS ON SUNDAYS
AND CATHOLIC OBSERVENCES OF HOLY DAYS OF THE YEAR. THE PLAINTIFF AND HIS
INFIRM (83) YEAR OLD MOTHER SPOKE REGULARLY THROUGH THE PLAINTIFFS LIFE­
TIME ABOUT GOD,JESUS CHRIST,AND MOTHER MARY,THE MOTHER OF GOD OUR SAVIOR.
THIS IS A 1st AMENDMENT PROTECTION UNDER THE U.S.CONSTITUTION FREEDOM OF
RELIGIOUS ASSOCIATION WITH HIS MOTHER PROTECTED UNDER DUE PROCESS OF LAW.
THE PLAINTIFF AND MOTHER BOTH HAVE A RELIGIOUS BOND OF ASSOCIATION UNDER
THE FIRST AMENDMENT.
10.) STANDARDS APPLIED TO THIS 42 U.S.C.§1983 FEDERAL CIVIL RIGHTS ACTION
FILED IN STATE COURT.
THIS ISA FEDERAL 42 U.S.C.§1983 FILED IN STATE COURT. THE FIRST AMEND­
MENT FREEDOM OF ASSOCIATION,FREEDOM OF SPEECH,FREEDOM OF RELIGION,THE
14th AMENDMENT DUE PROCESS CLAUSE IS APPLICABLE WITHIN THIS FEDERAL CIVIL
RIGHTS ACTION FILED IN STATE COURT. THE FIRST AMENDMENT PROTECTS THIS
PLAINTIFF AND HIS INFIRM MOTHER FROM VIOLATIONS BY THE DEFENDENTS OF THE
STATE OF CONNECTICUT DEPT,.OF CORRECTION. THE DEFENDENTS VIOLATING THE
PLAINTIFFS AND HIS MOTHERS FIRST AMENDMENT RIGHTS,WITHOUT DUE PROCESS
OF LAW.THE CONNECTICUT COURTS MUST USE FEDERAL LAWS,CONSTITUTIONS,AND
RULINGS INTHIS PLAINTIFFS §1983 FILED IN STATE COURT.THE STANDARDS OF THE
FEDERAL CONSTITUTION MUST BE USED WITHIN THIS FEDERAL CIVIL RIGHTS VIO­
LATIONS UNDER SUPREMACY CLAUSE AS THE ENTIRE STATE COURTS VIOLATE LAW.
11.) STATEMENT OF RELIEFS AND DEMANDS REQUESTED.
A.) ISSUE A DECLARATORY JUDGEMENT STATING THAT:
1.) THE DEFENDENTS.SCOTT SEMPLE,SCOTT ERFE,AND ANGEL QUIROS,VIOLATED THE
DUE PROCESS OF LAW UNDER THE 14th AMENDMENT OF U.S.CONSTITUTION.
(28)

2.) THAT THE DEPENDENTS VIOLATED THE DUE PROCESS OF BOTH PLAINTIFF AND
MOTHER (MRS.ANNA GAWLIK),DENYING CONTACT VISITS AFTER THE SUPERIOR COURT
TERMINATION OF PROTECTIVE ORDER AGAINST THE PLAINTIFF.
3.) THAT THERE WAS NO HEARING IN WHICH THE PLAINTIFFS RIGHTS AND PLAIN­
TIFFS MOTHERS RIGHTS UNDER THE DUE PROCESS CLAUSE OF THE FOURTEENTH AM­
ENDMENT TO THE U.S.CONSTITUTION,WERE VIOLATED.
4.) THAT THE DEFENDENTS AND THE DEPT.OF CORRECTION,AND ITS AGENTS,VIOLA­
TED THE DUE PROCESS CLAUSE OF THE FOURTEENTH AMENDMENT OF U.S.CONSTITUT-.
ION OF THE UNITED STATES.
5.) THAT THE DUE PROCESS VIOLATION OUTSIDE OF A COURT OF LAW IS UNCONSTI­
TUTIONAL AND VIOLATES THE UNITED STATES CONSTITUTION.
6.) DECLARATORY JUDGEMENT OF CONSTITUTIONAL DEPRIVATION IS WARRENTED.
B.) ISSUE AN (INJUNCTION) ORDERING DEFENDENTS,SEMPLE,ERFE,QUIROS,AND ITS
AGENTS TO;
1.) CEASE DENYING CONTACT VISITS REQUESTED BY PLAINTIFFS MOTHER (MRS.ANNA GAWLIK),IN WHICH SHE IS NO SAFETY AND SECURITY ISSUE.
2.) TO APPROVE THE VISITING APPLICATION SUBMITTED BY THE PLAINTIFFS MOTH­
ER (MRS.ANNA GAWLIK).
3.) TO ALLOW CONTACT VISITS TO HER SON (JAN.M.GAWLIK),EVEN IF THE PLAIN­
TIFF RECIEVES ANY DISCIPLINARY REPORTS OF CLASS,(A)(B)(C)/D.R.
C.

4.) TO ALLOW CONTACT VISITS WITH HER SON DURING VISITING TIMES WITHOUT
ANY HINDERANCE OR DIFFICULTY.
5.) TO UPDATE AND ERASE THE/WITHIN THE VISITING COMMENT AREA. OF DEPT.OF
CORRECTIONS ANY DENIALS LANGUAGE OF APPEALS COMPLETELY WITHIN SECTION OF
VISIT LIST OF THE PLAINTIFF (JAN.M.GAWLlft)MOTHERS INFORMATION DENYING
CONTACT VISITS
6.) PLACE IN THE PLAINTIFFS COMMENT AREA OF (JAN.M.GAWLIK) VISITING LIST
THAT INMATE (JAN.M.GAWLIK#138888),IS ALLOWED CONTACT VISITS WITH HIS MO­
THER (MRS.ANNA GAWLIK),EVEN IF THE INMATE/PLAINTIFF RECIEVES ANY
(29)

DISCIPLINARY TICKET WHILE INCARCERATED INSIDE THE DEPT.OF CORRECTIONS.
7.) ORDERING THE DEPENDENTS AND ITS AGENTS,OF THE STATE OF CONNECTICUT
DEPT.OF CORRECTION TO CEASE DENYING CONTACT VISITS OF THE PLAINTIFFS ELD­
ERLY INFIRM MOTHER.
C.) AWARD COMPENSATORY DAMAGES;
1.) $500,000.00/FIVE HUNDRED THOUSAND DOLLARS,IN DAMAGES SEVERALLY:AG­
AINST DEPENDENTS,SEMPLE,ERFE,QUIROS,INTHEIE INDIVIDUAL AND OFFICIAL CAPA­
CITIES DUE TO DEPRIVATION OF CONSTITUTIONAL RIGHTS.
D.) AWARD PUNITIVE DAMAGES;
1.) $500,000.00/FIVE HUNDRED THOUSAND DOLLARS,IN DAMAGES SEVERALLY AG­
AINST DEPENDENTS,SEMPLE,ERFE,QUIROS,INTHEIR INDIVIDUAL AND OFFICIAL CAPA­
CITIES DUE TO DEPRIVATION OF CONSTITUTIONAL RIGHTS.
E.) AWARD DAMAGES FOR DEPRIVATION OF PLAINTIFFS CONSTITUTIONAL RIGHTS;
1.) $100,000.00/ONE HUNDRED THOUSAND DOLLARS,IN THEIR INDIVIDUAL AND'OFF­
ICIAL CAPACITIES,FOR DEPRIVATION OF PLAINTIFFS CONSTITUTIONAL RIGHTS OF,
EACH/DEFENDENT.
F.) GRANT SUCH OTHER RELIEF AS IT MAY APPEAR THE PLAINTIFF IS ENTITLED.
G.) IN ACCORDANCE UNDER CONSTITUTION OF THE UNITED STATES ARTICLE SEVENTH
(7th) .-RIGHT BY TRIAL BY JURY SHALL BE PRESERVED. THIS PLAINTIFF DEMANDS TRIAL BY JURY.
H.) STATE IMMUNITY DOES NOT APPLY IN STATE COURT UNDER A CIVIL RIGHTS
ACTION IN ACCORDANCE UNDER 42 UiS.C.§1983. (HOWLETT V.ROSE,496 U.S.356,-

I

------ m

378.n.20,110 S.CT.2430(1990).
I.) STATE NOTICE OF CLAIMS COMMISSIONER REQUIREMENT DOES NOT APPLY IN
STATE COURT UNDER 42 U.S.C.§1983. (FELDER V.CASEY,487 U. S. 131,151,108,. g ,'CT. 2302(1988) .
J.) PURSUANT 42 U.S.C.§1988,ATTORNEY FEES,FILING FEES,COSTS,COPIES,ECT.

(30)

r'

X.

REASONS FOR GRANTING CERTIORARI

A.) TO AVOID CONSTITUTIONAL DEPRIVATIONS OF INCARCERATED INDIVIDUALS
ACROSS THE ENTIRE UNITED STATES OF THEIR CONSTITUTIONALLY PROTECTED
1st AMENDMENT AND 14th AMENDMENT RIGHTS OF FREEDOM OF ASSOCIATION,
FREEDOM OF SPEECH,RELIGIOUS EXPRESSION WITH FAMILY,PROTECTING FAMILYl
THE GRANTING OF CERTIORARI AND REiLIEF WILL SERVE THE PUBLIC INTEREST
BECAUSE IT IS ALWAYS IN THE PUBLIC INTEREST FOR PRISON OFFICIALS AND
STATE COURTS TO OBEY THE LAW,ESPECIALLY THE CONSTITUTION. (PHELPS-ROPERV.NIXON,545 f.ed.685,690(8th.cir.2008D:(DURAN V. ANAYA,<;6$2 F.SUPP,510,527,
(6.N.M.19860: "RESPECT FOR LAW,PARICULARLY BY OFFICIALS RESPONSIBLE FOR .
THE ADMINISTRATION OF STATES CORRECTIONAL SYSTEMS,IS IN ITSELF A MATTER
OF THE HIGHEST PUBLIC INTEREST." (LLEWELYN V.OAKLAND COUNTY PROSEEUTORSOFFICE,402,f.supp.1379,2393(E.D.MICH.1975);HOLDS; THE CONSTITUTION IS THE
ULTIMATE EXPRESSION OF THE PUBLIC INTEREST. INCARCERATED HAVE CONSTITU­
TIONAL RIGHTS UNDER THE FIRST AND FOURTEENTH AMENDMENTS UNLESS IT IS
TAKEN AWAY UNDER DUE PROCESS OF LAW. INCARCERATED HAVE CONSTITUTIONAL
RIGHTS IN THE UNITED STATES OF AMERICA.
XI.

CONCLUSION

FOR THE FOREGOING REASONS,CERTIORARI SHOULD BE GRANTED IN THIS CASE
DATED THIS

7th

DAY OF

JUNE

,2021.

RESPECTFULLY SUBMITTED,

GAWLIK,JAN.M./PRO-SE
C.C.I.
900 HIGHLAND AVENUE
CHESHIRE,CT.06410
(203)651-6257
ARGUING COUNSEL OF RECORD
(31)

